U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                           Follow-Up Review of the
                      Drug Enforcement Administration’s
                      Efforts to Control the Diversion of
                         Controlled Pharmaceuticals

                                      July 2006




                                      I-2006-004




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                               EXECUTIVE DIGEST


INTRODUCTION

      The U.S. Department of Justice’s (Department) Drug Enforcement
Administration (DEA) is the primary agency for enforcing the provisions of
the Controlled Substances Act of 1970 that pertain to the diversion of
controlled pharmaceuticals, such as narcotics, stimulants, and depressants,
and regulated chemicals, such as ephedrine. The DEA’s diversion control
program seeks to prevent, detect, and investigate the redirection of
controlled pharmaceuticals from legitimate channels, while ensuring an
adequate, uninterrupted supply to meet legitimate needs. Controlled
pharmaceuticals can be diverted from legitimate channels through theft or
fraud during the manufacturing and distribution process, and can be
diverted by anyone involved in the process, including medical staff,
pharmacy staff, and individuals involved in selling or using
pharmaceuticals. Diversion schemes include physicians selling
prescriptions, individuals obtaining and using controlled pharmaceuticals
without a documented medical need, and drug traffickers illegally selling
pharmaceuticals on the Internet without requiring prescriptions.

        Diversion of controlled pharmaceuticals has dramatically increased in
recent years, and research on drug usage reflects the growth of the problem.
According to a 2005 report from the National Center on Addiction and
Substance Abuse (CASA), the number of people who admitted abusing
controlled prescription drugs increased by 94 percent over a 10-year period,
from 7.8 million in 1992 to 15.1 million in 2003. 1 This rate of increase was
seven times faster than the increase in the U.S. population for that same
period. Further, the 2004 National Survey on Drug Use and Health reported
that 2.4 million people used prescription pain relievers non-medically for the
first time within 12 months of the survey – the largest number of new users
for any type of illicitly used drug. 2

      The increase in the diversion of controlled pharmaceuticals has
coincided with the emergence of the Internet as a significant source for


       1  Under the Counter: The Diversion and Abuse of Controlled Prescription Drugs in the
U.S., National Center on Addiction and Substance Abuse of Columbia University, July
2005. The report uses the term “abuse” to refer to non-medical use of a drug.

        2 The National Survey on Drug Use and Health defines “non-medical use” as the

use of prescription-type drugs not prescribed for the respondent by a physician or the use
of a drug only for the experience and feeling it causes.

U.S. Department of Justice                                                              i
Office of the Inspector General
Evaluation and Inspections Division
diverted pharmaceuticals. Hundreds of Internet pharmacies have been
established through which large amounts of pharmaceuticals can be easily
purchased with a credit card and without a prescription. According to one
estimate cited in the 2005 CASA report, the number of Internet pharmacies
in operation had reached as many as 1,400 at one time. In addition, an
April 2005 study by comScore Networks reported that 17.4 million people
visited online pharmacies in the fourth quarter of 2004, an increase of
14 percent from the previous quarter. 3 Sixty-three percent of these Internet
pharmacies did not require a prescription to obtain controlled substances.
Furthermore, the head of the DEA’s Miami field division underscored the
problem of pharmaceutical sales over the Internet in congressional
testimony in 2004, stating, “And perhaps of the greatest concern, the
Internet has become a virtual wild west bazaar for ‘spam’ emails and
website advertisements that sell controlled substances with little or no
oversight.” 4

       The Office of the Inspector General (OIG) conducted this follow-up
review to assess the DEA’s actions to control pharmaceutical diversion since
our previous review in October 2002. 5 As in our previous review, this
review does not examine the DEA diversion control program’s regulatory
activities, or its efforts to prevent the diversion of regulated chemicals. In
2002, we found that despite the widespread problem of controlled
pharmaceutical diversion and abuse, the DEA had been slow to commit
sufficient resources to address the problem. According to interviews with
DEA personnel cited in our 2002 report, DEA special agents spent only
3 percent of their total work hours on diversion investigations. In addition,
we found that because DEA diversion investigators lacked law enforcement
authority, the lack of special agent assistance negatively affected the quality
and timeliness of diversion investigations. 6 In addition, we found that the
DEA had not resolved the question of the law enforcement authority for

      3 ComScore is a global market research provider and consultant for Internet usage,

audience measurement, and e-commerce tracking data.

       4 Testimony of Thomas Raffanello, Special Agent in Charge (SAC), Miami Division,
DEA, before the U.S. House of Representatives Committee on Government Reform,
Subcommittee on Criminal Justice, Drug Policy and Human Resources, February 9, 2004.

       5  See the OIG report entitled Review of the Drug Enforcement Administration’s
Control of the Diversion of Controlled Pharmaceuticals, I-2002-010, October 2002,
www.usdoj.gov/oig/reports/DEA/e0210/index.htm.

         6 In the 2002 review, the estimate of 3 percent of special agents’ time devoted to

diversion investigations was based on information obtained from interviews with DEA
officials. In our 2005 review, we used DEA work hour data to determine how much time
special agents spent on diversion investigations.

U.S. Department of Justice                                                               ii
Office of the Inspector General
Evaluation and Inspections Division
diversion investigators, provided minimal intelligence support to diversion
investigators and did not provide specialized training for special agents in
diversion investigations.

     We made four recommendations in our 2002 review, and the DEA
concurred with them. We recommended that the DEA:

   •   increase investigative resources devoted to the controlled
       pharmaceutical diversion program;
   •   ensure adequate training for DEA special agents in diversion
       investigation procedures;
   •   clarify the roles, responsibilities, and law enforcement authorities of
       diversion investigators; and
   •   fully implement the Online Investigations Project (the DEA’s Internet
       investigative tool) and the diversion intelligence group to provide
       effective intelligence support to the Office of Diversion; also, the DEA
       should continue to explore additional intelligence capabilities to
       support the diversion investigator.

       In our current review, we examined (1) the actions taken by the DEA
to control the diversion of pharmaceuticals since our 2002 review, (2) the
current amount of law enforcement and intelligence assistance the DEA
provided for its diversion investigations, and (3) the DEA’s response to the
growing problem of Internet diversion. To investigate these issues, we
interviewed the DEA Administrator and Deputy Administrator, and other
personnel at DEA headquarters and in 13 DEA field offices, analyzed data
from 7 DEA databases, and reviewed a variety of DEA documents. We also
surveyed the group supervisors of the DEA’s 68 domestic diversion groups
regarding the organization of their groups, the law enforcement and
intelligence support they received, the types of investigations they initiated,
and their training.

RESULTS IN BRIEF

       Since our 2002 review, we found that the DEA has taken important
steps to improve its ability to control the diversion of controlled
pharmaceuticals, especially pharmaceutical diversion using the Internet.
However, several shortcomings in the DEA’s diversion control efforts that we
identified and reported on in 2002 still exist.

       On the positive side, the DEA has added diversion control as a
strategic goal in its strategic plan for fiscal years (FY) 2003 – 2008,
reorganized its Operations Division to include law enforcement operations
for diversion control, and provided additional intelligence resources to

U.S. Department of Justice                                                  iii
Office of the Inspector General
Evaluation and Inspections Division
diversion investigators. Further, it increased the number of criminal
diversion investigations initiated from 770 in FY 2002 to 950 in FY 2005
and the number of authorized domestic diversion investigators by 75
positions from 512 in FY 2004 to 587 in FY 2005. In addition, in FY 2005
the DEA established the first performance measures for its diversion control
program. 7

      Moreover, since 2002 the DEA has taken a series of actions to control
the increasing use of the Internet to divert pharmaceuticals. From FY 2002
to FY 2005, the DEA increased the percentage of time that diversion
investigators spent investigating Internet diversion cases from 3 percent to
11 percent. The DEA also developed an operational strategy for Internet
investigations that has been used successfully on several large
pharmaceutical diversion investigations.

        Despite these positive actions, we identified several continuing
concerns. We found that although the need for special agent assistance
in diversion investigations had increased significantly since our previous
review, the time spent by special agents assisting diversion investigations
still constitutes a small share of their total investigative effort. 8 In
addition, we found that the DEA still had not resolved the complicated
issue of providing law enforcement authority for its diversion
investigators, although it is actively pursuing the matter. Further, we
found that few DEA special agents have received diversion control
training beyond the 2-hour module provided during basic agent training.
In addition, the support provided by intelligence analysts to diversion
groups in the field has continued to be limited, and intelligence analysts
still received minimal diversion control training.

       With respect to the DEA’s Internet efforts, we examined several of the
intelligence, technological, and investigative tools that are part of the DEA's
operational strategy, including the Online Investigations Project (OIP),
telephone and online hotlines, undercover equipment, and training in
conducting Internet diversion investigations. We found that the OIP, under
development since 2001, has become a valuable investigative tool even
though it cannot automatically identify web sites with the highest volume of
suspect pharmaceutical sales as originally intended. In addition, since
2002 the DEA has established telephone and online hotlines for reporting

       7 The 75 positions include diversion personnel in domestic field divisions, as well as
in headquarters and field support.

        8 Diversion investigators lack law enforcement authority and therefore must depend

on DEA special agents or other law enforcement officers to perform tasks such as making
arrests and serving search warrants.

U.S. Department of Justice                                                             iv
Office of the Inspector General
Evaluation and Inspections Division
suspicious Internet pharmacies. However, these hotlines have yielded few
leads that resulted in diversion investigations. Further, while the DEA has
started to provide undercover equipment to its diversion groups, as of May
2006 most diversion groups still did not have this equipment. And while
over half of the 482 diversion investigators have received training in Internet
investigations, most have not received the types of specialized training that
diversion investigators said would prove useful for conducting Internet
investigations.

      We now discuss in more detail the DEA improvements in its
pharmaceutical diversion control efforts as well as continuing areas of
concern.

Improvements in the DEA’s Diversion Control Program

        The DEA has taken important steps to help prevent the diversion of
controlled pharmaceuticals since our last review. For example, the DEA
made diversion control a strategic goal in its strategic plan for FY 2003 –
2008. In addition, DEA leaders have expressed the importance of the
agency’s diversion control efforts. For example, the DEA Administrator
emphasized the importance of diversion control in a January 2004 cable to
all field divisions, stating that “stopping the abuse and diversion of
pharmaceutical controlled substances must be a DEA and Department of
Justice priority.” The DEA also reorganized its headquarters Operations
Division in the fall of 2004 so that all criminal enforcement activities,
including those for diversion control, were centralized in one unit, which
according to one DEA official gave more visibility and importance to criminal
diversion investigations. 9

       In 2002, we recommended that the DEA increase the investigative
resources devoted to controlling pharmaceutical diversion. In response, the
DEA added 75 diversion investigator positions in FY 2004, raising the
number of authorized diversion investigator positions in the DEA’s domestic
field divisions by 15 percent. Further, in FY 2006 the DEA received
41 additional intelligence positions and 23 special agent positions that it
intends to dedicate to diversion control.

       The DEA also provided diversion investigators with additional
intelligence resources, including a new searchable analytical database and a

       9 Previously, responsibility for oversight of enforcement operations was divided

between two DEA headquarters offices, with domestic and foreign enforcement for illicit
drugs overseen by the Office of Enforcement Operations and diversion control enforcement
by the Office of Diversion Control.

U.S. Department of Justice                                                          v
Office of the Inspector General
Evaluation and Inspections Division
new unit at DEA headquarters dedicated to supporting investigations that
involve Internet-based communications. Further, the DEA has made the
Automation of Reports and Consolidated Orders System (ARCOS) database,
which tracks Schedule II controlled substances from point of manufacture
to retail locations, more timely and accessible to diversion investigators. 10

       Between FY 2002 and FY 2005 the DEA increased the number of
criminal diversion investigations it initiated from 770 to 950, an increase of
approximately 23 percent. The DEA’s formal diversion control performance
measures, established in FY 2005, showed that the number of drug
diversion organizations disrupted increased from 454 to 474 and the
number of diversion drug organizations dismantled increased from 474 to
594. 11

Diversion of Controlled Pharmaceuticals Using the Internet

      Since 2002, diversion of controlled pharmaceuticals using the Internet
has increased dramatically, and the DEA has increased the percentage of
diversion investigators’ time applied to Internet diversion investigations from
3 percent in FY 2002 to 11 percent in FY 2005. In 2004, the DEA developed
an operational strategy for Internet-based diversion investigations that
according to the DEA’s Deputy Administrator has been used successfully in
several large DEA-led operations. 12 Although no DEA personnel specifically


       10  All controlled substances, which include illicit drugs as well as those prescribed
for medical purposes, are assigned to one of five categories or schedules based upon the
substance’s medicinal value, harmfulness, and potential for abuse or addiction. Schedule I
is reserved for the most dangerous drugs that have no recognized medical use, while
Schedule V is used for the least dangerous drugs. Controlled pharmaceuticals are found in
Schedules II through V.

        11 The DEA formally measures the performance of its diversion control program by

the number of diversion drug organizations disrupted (total number of civil fines imposed,
administrative hearings conducted, letters of admonition issued, and registrations
suspended or restricted) and by the number of diversion drug organizations dismantled
(total number of registrations revoked, denied, or surrendered for cause).

       12  The DEA’s Internet strategy contains five elements: (1) targeting and analysis,
which identifies and investigates suspicious Internet pharmacy activity; (2) technology,
which develops and implements new resources to collect information about suspicious
Internet pharmacy activity; (3) legislation, which attempts to change laws either to make
operating illegal online pharmacies more difficult or to make prosecuting operators of illegal
online pharmacies easier; (4) demand reduction, which establishes hotlines the public can
use to report suspicious online pharmacies, public service announcements, and Internet
sites to educate the public about controlled pharmaceutical abuse; and (5) training and
education, which develop training courses for DEA personnel, task force officers, and
Assistant U.S. Attorneys.

U.S. Department of Justice                                                              vi
Office of the Inspector General
Evaluation and Inspections Division
mentioned the Internet strategy to us during our field work, DEA
headquarters managers informed us that they had presented the strategy to
field managers during 2005 through a PowerPoint presentation. DEA
management stated that while field personnel might not have been aware of
the term “Internet strategy,” many had used the intelligence tools and
technology that are a part of it.

       We also examined the key intelligence, technological, and investigative
tools that are a part of the DEA’s Internet strategy. Our review found that
the Online Investigations Project (OIP), while considered by the DEA to be
implemented and a viable investigative tool, does not operate as originally
intended because it cannot automatically identify web sites with the highest
volume of suspect pharmaceutical sales. 13 While the OIP is not able to
proactively identify the Internet pharmacies receiving the most orders so
that investigations can be prioritized, the DEA reported that analysts are
using it to efficiently synthesize large amounts of information about web
sites that are already under investigation.

      According to DEA managers, the OIP scans information that is
publicly available on the Internet to find connections between web sites
under investigation and pertinent information such as addresses, phone
numbers, e-mail addresses, and other web sites. DEA analysts then
transfer the OIP’s search results to charts that display these connections
and provide the charts to field investigators to assist in their investigations.

       Further, in our current review we found that most diversion
investigators did not have undercover credit cards that would allow them to
establish undercover identities that could not be traced to the DEA, a tool
often necessary for conducting Internet investigations. DEA managers
stated that they were aware of this problem and had conducted a pilot
undercover credit card program for diversion investigations in three field
divisions during the fall of 2005. DEA managers said that this pilot
program was successful and that by June 2006 each DEA field division will
have three to five undercover credit cards to be used exclusively for
purchasing pharmaceuticals over the Internet. 14

       DEA managers also informed us that the DEA has begun establishing
a virtual private network that will link its undercover computers in each

       13 The OIP is a computer program that searches the Internet, using key words or
phrases to identify web sites possibly involved in the diversion of controlled substances.

       14 As of June 8, 2006, 6 of the DEA’s 21 domestic field divisions had at least one

undercover credit card for diversion investigations and 12 field divisions were still in the
process of obtaining their first card.

U.S. Department of Justice                                                               vii
Office of the Inspector General
Evaluation and Inspections Division
DEA field division to DEA headquarters. They stated that the virtual private
network has already been implemented in the Atlanta, Phoenix, Los Angeles,
and Miami field divisions.

       Finally, over half of the 482 diversion investigators on board in
FY 2005 and assigned to domestic divisions had attended the DEA’s 3-day
Internet Telecommunications Exploitation training. However, only 7 percent
had attended the DEA training on financial investigations and conspiracy
and complex investigations. 15 Diversion investigators told us that training
in these areas was crucial for Internet diversion investigations because
Internet operations often are dispersed geographically and because the
anonymity of the Internet allows businesses to easily hide their identity and
financial transactions. DEA managers stated that training resources are
limited and that providing Internet Telecommunications Exploitation
training to diversion investigators is a DEA priority over other training
courses.

Continuing Concerns in the DEA’s Diversion Control Program

       Despite the positive steps that the DEA has taken to help prevent the
diversion of controlled pharmaceuticals since 2002, we identified several
continuing concerns about the DEA’s diversion control program. These
concerns are related to inadequate special agent support for diversion
investigations, slow resolution on the issue of providing law enforcement
authority to diversion investigators, additional need for intelligence analyst
support, and the need for additional training for special agents and
intelligence analysts in pharmaceutical diversion investigations.

Special Agent Support

       We found that even though DEA special agent assistance to diversion
investigations has increased since 2002, it has remained a small part of
special agents’ investigative efforts. To assess the amount of special agent
support for diversion investigations since 2002, we considered five sources
of evidence: analysis of work hour data related to special agent time spent
on diversion investigations; analysis of work hour data related to special
agent time spent on pharmaceutical investigations; 16 interviews of DEA


       15 As of April 2006, 34 percent of special agents and 61 percent of intelligence
analysts had attended the Internet Telecommunications Exploitation training.

        16 In this review, we refer to diversion investigations as those initiated by diversion

investigators that can involve controlled pharmaceuticals or regulated chemicals, and that
can be criminal or regulatory in nature; and pharmaceutical investigations as those that
Cont’d.
U.S. Department of Justice                                                                viii
Office of the Inspector General
Evaluation and Inspections Division
personnel; DEA Pharmaceutical Threat Assessments; 17 and OIG survey
responses of diversion group supervisors.

        Both work hour data analyses indicated that while the time that
special agents spent on diversion control increased after our 2002 review, it
still represented a small amount of special agents’ investigative time.
Between FY 2002 and FY 2005, the DEA increased the number of work
years that special agents spent on diversion investigations from 14.8 to
27.4 work years, an increase of 85 percent. Even with this increase, the
actual percentage of special agent time spent on diversion investigations
increased from 0.6 percent to 1.0 percent of their total investigative time
between FY 2002 and FY 2005. That is, DEA special agents collectively
spent 1 percent of their total investigative efforts on diversion investigations
in FY 2005.

       We also found that between FY 2003 and FY 2005 special agents
increased the number of work years spent on pharmaceutical investigations
from 26.8 to 57.4 work years, an increase of 114 percent. However, this still
accounted for only 1.2 percent of the special agents’ total investigative time
in FY 2003 and 2.2 percent in FY 2005. That is, DEA special agents
collectively spent approximately 2 percent of their total investigative efforts
on pharmaceutical investigations in FY 2005.

      Although the investigative time that special agents spent on diversion
investigations constitutes a small part of their total investigative efforts, we
found instances of the DEA providing significant special agent support to
some diversion investigations. For example, in FY 2005 four large diversion
operations accounted for 22 percent of all special agent work hours on
criminal diversion pharmaceutical investigations.

       The DEA has recognized the importance of providing special agent
support to diversion investigators for several years. On August 3, 2001, the
DEA’s Chief of Operations directed field divisions to assign two special
agents to each diversion group in every division office. The DEA’s plans
were delayed when, after the September 11, 2001, terrorist attacks, many
federal law enforcement agents, including DEA agents, were assigned to
assist the Federal Bureau of Investigation on various counterterrorism task

can be initiated by diversion investigators or special agents, must involve controlled
pharmaceuticals only, and are criminal in nature.

        17 In a January 2004 cable, the DEA Administrator directed the Special Agent in

Charge of each field division to develop a Pharmaceutical Threat Assessment for the
division’s region containing information such as statistics about drug prices and use, and
obstacles to case investigation and prosecution.

U.S. Department of Justice                                                               ix
Office of the Inspector General
Evaluation and Inspections Division
forces. However, almost 5 years after the Chief of Operations directive, we
found that only 6 of the DEA’s 27 diversion groups located in field offices
had at least 1 special agent position authorized to assist with diversion
investigations. 18

      Some DEA diversion personnel told the OIG that the lack of
assistance from special agents to perform law enforcement functions, such
as serving warrants and conducting surveillance, caused diversion
investigations to be delayed. Other diversion investigators said that they did
not pursue some investigative leads requiring law enforcement support
because they assumed that they would not receive special agent assistance.
Three-quarters of the 62 diversion group supervisors who responded to our
survey stated that they had to rely on law enforcement support for their
diversion investigations from state, local, or other federal law enforcement
personnel rather than from DEA special agents.

       During our review, we also found instances in which diversion
personnel were very satisfied with their working relationships with DEA
special agents. This was the case primarily in field divisions that assigned
special agents and diversion investigators to the same group or where the
field division had been involved in a major diversion control operation.

Diversion Control Training for Special Agents

      Our current review also found that during the past 3 years DEA
special agents have received minimal diversion control training. In 2004,
the DEA created a week-long Special Agent Diversion School. According to
the DEA, as of April 2006 a total of 98 special agents had attended the
school. 19 DEA officials stated that they intend eventually to send all special
agents who assist with diversion investigations to this school; however,
according to DEA officials, no additional sessions of this training will be
conducted in FY 2006. Currently, the only diversion training that all DEA
special agents receive is a 2-hour session included in basic agent training
that consists of a video produced in 1996 and a general overview of the
DEA’s diversion control program. 20

       18   One of the 27 diversion groups did not respond to our survey.

       19  In addition, DEA officials informed us that 11 special agents have attended a
seminar on the development and prosecution of diversion/Internet investigations and that
34 percent (1,699) of all DEA special agents have attended the DEA’s three-day Internet
Telecommunications Exploitation Program, which includes a module on Internet pharmacy
investigations.

       20   DEA officials told us that they are currently updating this video.

U.S. Department of Justice                                                          x
Office of the Inspector General
Evaluation and Inspections Division
Enforcement Authority for Diversion Investigators

      In 2002, we found that the DEA had failed to resolve the question of
whether diversion investigators should receive law enforcement authority,
and we recommended that the DEA clarify diversion investigator’s roles,
responsibilities, and law enforcement authority. We found that since our
2002 review the DEA has taken actions to reclassify the diversion
investigator position to one with law enforcement authority, but that
conversion has not yet been accomplished.

       In January 2003, the DEA submitted an initial proposal to the
Department to reclassify its diversion investigators from a non-law
enforcement job series to a criminal investigative job series with law
enforcement authority. DEA officials informed us that throughout 2004 and
2005 they pursued this effort by meeting regularly with Department officials
who had to review and approve the proposal. In September 2005, the DEA
submitted a final proposal to reclassify diversion investigators to a new
position that would give them law enforcement authority and allow them to
conduct criminal investigations. However, as of June 1, 2006, the
Department, the Office of Personnel Management, and the Office of
Management and Budget have yet to approve the request.

      In addition to obtaining approval, reclassifying DEA diversion
investigators to law enforcement officers will also require an increase in the
Diversion Control Fee Account. 21 Even if the DEA’s conversion proposal is
approved and funded, DEA officials estimate that it will take an additional
18 months to recruit, hire, and train new personnel and 9 months to
reclassify, train, and assign eligible current diversion investigators.
Therefore, despite the DEA’s efforts, diversion investigators are not likely to
receive law enforcement authority anytime soon. We believe that until the
DEA receives approval and fully implements this initiative, it needs to
ensure that its diversion investigators receive sufficient special agent
support.

Intelligence Analyst Assistance

       Since our 2002 review, the DEA has increased the amount of
intelligence resources (such as searchable analytical databases) available to
diversion investigators. However, we found that the assistance that

        21 The Diversion Control Fee Account (DCFA) is administered by the DEA to recover

the full costs of operating the various aspects of the DEA’s diversion control program. The
DCFA is funded by registration fees paid by all manufacturers, distributors, dispensers,
importers, and exporters of controlled substances and List I chemicals.

U.S. Department of Justice                                                            xi
Office of the Inspector General
Evaluation and Inspections Division
intelligence analysts provide field investigators for diversion investigations
has remained limited.

      In 2002, we recommended that the DEA provide effective intelligence
support to the diversion control program. We learned in both our previous
and current reviews that assistance from intelligence analysts is particularly
important in diversion control cases because of the increasingly complex
nature of diversion investigations, especially diversion using the Internet.
The DEA concurred with our recommendation, and over the past several
years the amount of time intelligence analysts spent assisting diversion
investigations increased by 143 percent, from 2.5 work years in FY 2002 to
6.0 work years in FY 2005. The amount of time that intelligence analysts
spent assisting criminal pharmaceutical investigations increased from
3.4 work years in FY 2003 to 11.4 work years in FY 2005. Yet, despite this
increase, overall intelligence analysts spent 1.7 percent of their total
criminal investigative time on diversion investigations in FY 2003 and
5.3 percent in FY 2005.
      Similar to special agent time spent on diversion cases, we found that
the DEA provided significant intelligence support for several major diversion
investigations. For example, in FY 2005 four large diversion operations
accounted for 44 percent of all intelligence analyst work hours on criminal
pharmaceutical investigations.
       None of the 62 diversion groups that responded to our survey said
they had a field intelligence analyst assigned to them, even though we found
instances in which intelligence analysts were assigned to special agent
enforcement groups investigating illicit drugs. As a result, diversion
investigators told us they had to develop their own intelligence by gathering
information from databases and other sources. Further, 55 percent of the
survey respondents reported that the lack of intelligence support sometimes
or often delayed investigations.
       We spoke to DEA managers about diversion investigators’ perceived
lack of intelligence support. They explained that previously, intelligence
analysts were often assigned to, and provided support to, specific
enforcement groups, which gave the enforcement groups direct access to
intelligence support, whereas diversion groups, on the other hand, had
indirect access. However, recently DEA field divisions have begun to provide
intelligence support based on the priority of the investigation, regardless of
whether the investigation involves illegal drugs or controlled
pharmaceuticals.
       Finally, we found that intelligence analysts received minimal training
focusing on the diversion of pharmaceuticals. Currently, the only training
that intelligence analysts receive in diversion control is a 2-hour module
U.S. Department of Justice                                                 xii
Office of the Inspector General
Evaluation and Inspections Division
included in their basic training, which represents only 0.5 percent of the
training hours for intelligence analysts.

CONCLUSION AND RECOMMENDATIONS

       Since our last review, the DEA has taken important steps to improve
its ability to control the diversion of controlled pharmaceuticals, including
efforts to control diversion using the Internet. However, several
shortcomings in the DEA’s diversion control program that we identified and
reported in 2002 still exist today. On the positive side, the DEA has added
diversion control as a strategic goal in its FY 2003 – 2008 strategic plan,
reorganized its Operations Division to include law enforcement operations
for diversion control, provided additional intelligence resources to
investigators, and increased its authorized domestic diversion investigator
positions by 15 percent from FY 2002 to FY 2005. The DEA also increased
the number of criminal diversion investigations initiated by 23 percent since
issuance of our 2002 report and established the first performance measures
for the diversion control program in FY 2005. Finally, the DEA has
increased the percentage of time diversion investigators spend investigating
diversion using the Internet and developed an operational strategy for
Internet investigations.
       Overall, we found that the DEA had increased the amount of special
agents’ time devoted to diversion control since our last review. Nonetheless,
this still represents a very small percentage of special agent time, and the
need for special agent assistance in diversion cases has increased. In
addition, while 34 percent (1,699) of all DEA special agents have attended
Internet training applicable to Internet diversion investigations, only 98 of
5,013 special agents have attended the DEA’s week-long course specifically
addressing diversion. We also found that the DEA has not ensured that
diversion investigators have the necessary tools and training to conduct
successful investigations involving diversion using the Internet. Finally,
with the growing threat of diversion using the Internet and the overall
growth of pharmaceutical diversion in general, the need for intelligence
analyst support for diversion control has increased. However, similar to
what we found in our previous review, intelligence analyst assistance
remains limited in the field and training for intelligence analysts is minimal.
       We are making six recommendations to help the DEA improve its
ability to address the growing problem of diversion of controlled
pharmaceuticals.




U.S. Department of Justice                                               xiii
Office of the Inspector General
Evaluation and Inspections Division
       We recommend that the DEA:
       1. Provide diversion investigators with adequate special agent support
          until the conversion of the DEA diversion investigator position to
          one with law enforcement authority is fully implemented.
       2. Ensure that DEA special agents who frequently assist with
          diversion investigations attend the week-long diversion training
          school.
       3. Provide training to intelligence analysts on topics that would
          effectively support diversion investigations.
       4. Update the diversion control training video used in the special
          agent and intelligence analyst training academies to include
          current issues such as diversion using the Internet.
       5. Ensure that diversion investigators receive training in skills
          necessary for conducting Internet investigations, such as financial
          investigations.
       6. Fully implement the program to provide undercover credit cards to
          diversion investigators.




U.S. Department of Justice                                                 xiv
Office of the Inspector General
Evaluation and Inspections Division
                                 TABLE OF CONTENTS


EXECUTIVE DIGEST .............................................................................i

BACKGROUND ..................................................................................... 1

PURPOSE, SCOPE, AND METHODOLOGY............................................ 12

RESULTS OF THE REVIEW................................................................. 16

       Improvements in the DEA’s Pharmaceutical Diversion Control
       Program .......................................................................................... 16
       Diversion of Controlled Pharmaceuticals Using the Internet............. 20
       Continuing Concerns in the DEA’s Diversion Control Program......... 27

CONCLUSION AND RECOMMENDATIONS ........................................... 40

APPENDIX I: GROUP SUPERVISOR QUESTIONNAIRE.......................... 42

APPENDIX II: SCOPE OF THE OIG REVIEW REGARDING CONTROLLED
SUBSTANCES AND COMMODITIES ..................................................... 53

APPENDIX III: DEA’S RESPONSE TO DRAFT REPORT ....................... 56

APPENDIX IV: OIG’S ANALYSIS OF DEA’S RESPONSE ....................... 66
                                  BACKGROUND


Introduction

        On October 27, 1970, the Congress passed the Comprehensive Drug
Abuse Prevention and Control Act (P.L. 91-513, 21 U.S.C. § 801 et seq.).
According to the Drug Enforcement Administration (DEA), Title II of this Act,
the Controlled Substances Act, is a “consolidation of numerous laws
regulating the manufacture and distribution of narcotics, stimulants,
depressants, hallucinogens, anabolic steroids, and chemicals used in the
illicit production of controlled substances” and is “the legal foundation of
the government’s fight against drugs and other substances.” 22 The Act also
regulates all legal and illegal substances that are recognized as having
potential for abuse or addiction.

      The DEA is charged with enforcing the Controlled Substances Act,
including the regulation of controlled pharmaceuticals and regulated
chemicals. Specifically, the DEA’s diversion control program oversees and
regulates the legal manufacture and distribution of controlled
pharmaceuticals, which include narcotics such as codeine and methadone,
stimulants such as amphetamine, and depressants such as diazepam; and
regulated chemicals, which include pseudo ephedrine and ephedrine.

       The Controlled Substances Act requires registration with the DEA by
all businesses that import, export, manufacture, or distribute controlled
substances; all health care practitioners entitled to dispense, administer, or
prescribe controlled pharmaceuticals; and all pharmacies entitled to fill
prescriptions. Registrants must comply with a series of regulatory
requirements relating to security, record keeping and accountability, and
adherence to published standards. The DEA can deny, suspend, or revoke
a registration for several reasons, including professional license sanctions
(by state authorities), prior federal or state convictions, or a registrant’s
incompatibility with the public interest.

Controlled Pharmaceutical Diversion
       Controlled pharmaceuticals are used legitimately by a large share of
the American public and are found in legitimate places such as doctors’
offices and pharmacies. However, they can be diverted intentionally or
unintentionally by doctors, pharmacists, dentists, nurses, veterinarians,
and individual users. Diversion cases may involve physicians who sell
prescriptions to drug dealers or abusers, pharmacists who falsify records to

       22   DEA overview on the Controlled Substances Act, www.usdoj.gov/dea/agency/csa.htm.


U.S. Department of Justice                                                      1
Office of the Inspector General
Evaluation and Inspections Division
obtain and then sell pharmaceuticals, employees who steal from physician
or pharmacy inventories, individuals who forge prescriptions, individuals
who commit armed robbery of pharmacies and drug distributors, “doctor
shoppers” who routinely visit multiple doctors complaining of the same
ailment to obtain multiple prescriptions for controlled substances, and
individuals who establish Internet pharmacies that sell controlled
pharmaceuticals without requiring prescriptions.

       The abuse of controlled pharmaceuticals can be as dangerous as the
abuse of illicit drugs. Both can result in addiction, overdoses, and deaths.
Moreover, the emergence of illicit Internet pharmacies has increased the
availability of controlled pharmaceuticals by facilitating an easy purchase
with a credit card and without a prescription.

Scope of Diversion

       In recent years, the amount of controlled pharmaceuticals diverted
from legal channels has increased significantly. Statistics from the National
Drug Intelligence Center show that between calendar years 2000 and 2003,
thefts of pharmaceuticals increased by 15.7 percent. 23 According to a
July 2005 report from the National Center on Addiction and Substance
Abuse of Columbia University (CASA), the number of people who admitted
abusing controlled prescription drugs increased by 94 percent, from
7.8 million in 1992 to 15.1 million in 2003. 24 This rate of increase was
seven times faster than the increase in the U.S. population for that same
period. Additionally, the 2004 National Survey on Drug Use and Health
reported that 2.4 million people used prescription pain relievers non-
medically for the first time within the past 12 months. 25 This number was
the largest number of new users for any type of illicitly used drug during
that same time period.

      The abuse of controlled pharmaceuticals rivals the abuse of illicit
drugs. For example, the CASA report stated that more people reported
abusing prescription drugs (15.1 million) in 2003 than abusing illicit drugs,

       23National Drug Threat Assessment 2005, National Drug Intelligence Center,
February 2005.

       24 Under the Counter: The Diversion and Abuse of Controlled Prescription Drugs in the

U.S., National Center on Addiction and Substance Abuse of Columbia University, July
2005. The report uses the term “abuse” to refer to non-medical use of a drug.

        25 The National Survey on Drug Use and Health defines non-medical use as the use

of prescription-type drugs not prescribed for the respondent by a physician or the use of a
drug only for the experience and feeling it causes. The CASA report uses the term abuse to
refer to non-medical use of a drug.


U.S. Department of Justice                                                          2
Office of the Inspector General
Evaluation and Inspections Division
such as cocaine, hallucinogens, inhalants, and heroin (12.3 million). From
2002 to 2003, the number of people in the U.S. population who reported
using heroin at least once in their lifetime remained constant, while the
number who reported using Oxycodone non-medically increased by
1.9 million users. A 2005 DEA report on prescription drug diversion stated
that “twenty-two million Americans suffer from substance dependence or
abuse, with the non-medical use of prescription drugs ranking second only
to marijuana as the most prevalent category of drug abuse.” 26

       In 2005, Congress emphasized its concern regarding the diversion of
controlled pharmaceuticals. The House Report on the Justice Department’s
fiscal year (FY) 2005 appropriations stated that while more than 6 million
Americans abused prescription drugs, the “DEA has demonstrated a lack of
effort to address this problem.” The report also stated that the DEA was
expected to work “to ensure a coordinated government-wide approach to
address prescription drug diversion . . . [and that the] Department of Justice
is directed to submit quarterly reports describing its efforts to address
prescription drug diversion.” 27 The House Report on the Justice
Department's FY 2006 appropriations repeated the concerns from the
previous year. The final appropriation for FY 2006 included an additional
$8.8 million and 41 positions for the DEA to improve intelligence support
and $4.7 million and 23 positions for additional agents to assist diversion
control. 28

       One specific area in which diversion recently has increased
dramatically is through the use of the Internet. According to one estimate
cited in the CASA report, the number of Internet pharmacies in operation at
any one time has reached as high as 1,400. 29 Additionally, a study by
comScore Networks reported that 17.4 million people visited an online
pharmacy in the fourth quarter of 2004, an increase of 14 percent from the
previous quarter. 30 Sixty-three percent of these sites did not require a
prescription to obtain controlled substances.




       26   DEA, Prescription Drug Diversion, June 2005.

       27   H.R. Rep. No. 108-576 (July 1, 2004).

       28   H.R. Rep. No. 109-118 (June 10, 2005).

       29   Each of these pharmacies may have been represented by multiple web sites.

       30ComScore is a global market research provider and consultant for Internet usage,
audience measurement, and e-commerce tracking data. The study is at
www.comscore.com/press/release.asp?press=571.


U.S. Department of Justice                                                         3
Office of the Inspector General
Evaluation and Inspections Division
        Three recent high-profile DEA-led Internet investigations indicate the
scope of the problem of pharmaceutical diversion using the Internet. In
April 2005, Operation Cyber Chase targeted an organization suspected of
illegally distributed approximately 2.5 million dosage units of controlled
pharmaceuticals per month over the Internet. Operation Cyber Chase was
an international operation involving two DEA field divisions and one DEA
foreign office, and resulted in the arrest of 26 people in four countries. It
also resulted in the seizure of 10 million dosage units of controlled
pharmaceuticals, 231 pounds of an animal tranquilizer (ketamine), and
$8.5 million.

      In September 2005, Operation CybeRx dismantled an organization
that was averaging more than $50,000 a day in profits from an illegal
Internet-based enterprise. The Special Agent in Charge (SAC) of the Dallas
Field Division dedicated the entire staff of the Fort Worth field office to
Operation CybeRx for 7½ months. The operation resulted in 19 arrests,
suspension orders against 20 pharmacies and physicians, and the seizure of
$16.8 million in cash and property.

      In December 2005, Operation Gear Grinder targeted eight major
steroid manufacturing companies whose combined illicit Internet sales of
steroids smuggled from Mexico totaled $56 million a year. These companies
were the source of 82 percent of all steroids seized in the Unites States and
analyzed by DEA laboratories. Operation Gear Grinder took place over 21
months and resulted in 9 arrests.

Impact of Diversion

       The DEA Administrator noted the consequences of non-medical
pharmaceutical use in a 2004 cable to DEA employees, stating that “the
diversion and abuse of legal controlled substances poses a significant threat
to the health and safety of Americans.” In 2005 congressional testimony,
the DEA’s Acting Deputy Assistant Administrator, Office of Diversion
Control, also stated that:

       The non-medical use of prescription drugs has become an
       increasingly widespread and serious problem in the United
       States. A new generation of high dose, extended release, opioid
       pain medications have taken the existing threat to a new level.
       The abuse and diversion statistics are alarming. . . . These
       powerful drugs provide strong incentives for diversion through
       new means, such as “rogue” Internet pharmacies, as well as




U.S. Department of Justice                                               4
Office of the Inspector General
Evaluation and Inspections Division
       older methods, like prescriptions for profit. Recent drug use
       surveys have highlighted the gravity of this problem. 31

The DEA’s Diversion Control Program

       The DEA’s diversion control program has two main functions:

   •   Regulatory – Oversight of all registrants that provide controlled
       pharmaceutical products to the public to ensure that they are
       complying with the requirements of the Controlled Substances Act.

   •   Enforcement – Responsibility for identifying, investigating, and
       penalizing (administratively, civilly, or criminally) those persons
       responsible for diversion, whether through willfully negligent or
       criminal acts.

       The DEA’s diversion control activities are directed and supported from
DEA headquarters but are conducted primarily through the DEA’s field
divisions and offices. The DEA headquarters Office of Diversion Control
coordinates regulatory activities, the Pharmaceutical Investigations Section
in the Office of Enforcement Operations manages the enforcement
functions, and the Special Operations Division provides assistance with
Internet investigations (Chart 1).




       31 Statement of Joseph Rannazzisi, Acting Deputy Assistant Administrator, Office of

Diversion Control, DEA, before the House Committee on Government Reform,
Subcommittee on Regulatory Affairs, Status of the Efforts of the FDA and DEA in regulating
Schedule II Prescription Painkillers, Specifically OxyContin® and Other Opioid Analgesics,
September 13, 2005.


U.S. Department of Justice                                                         5
Office of the Inspector General
Evaluation and Inspections Division
              Chart 1: Subset of the Overall DEA Organization Chart


                                              DEA
                                           Administrator




                                  Executive
                                   Policy &
                                  Strategic
                                Planning Staff



   Human        Operations   Operational                   Intelligence       Inspection    Financial
  Resources      Division     Support                        Division          Division    Management
   Division                   Division                                                       Division




  Office of      Office of     Special             Office of          El Paso               Office of
  Diversion    Enforcement    Operations           Special          Intelligence            Resource
   Control      Operations     Division          Intelligence          Center              Management



Source: The DEA

Diversion Control Program Structure in DEA Headquarters

        Office of Diversion Control. The Office of Diversion Control is located
within the DEA’s Operations Division. Until the fall of 2004, the Office of
Diversion Control was the primary headquarters element responsible for
both the regulatory and enforcement functions of diversion control. In the
fall of 2004, the DEA relocated the enforcement functions of diversion
control to the Office of Enforcement Operations and certain Internet
investigative assistance to the Special Operations Division. Currently, the
Office of Diversion Control provides policy direction, program guidance, and
support to DEA diversion control staff in the field. It also coordinates all
regulatory activities, such as working with registrants, potential registrants,
and members of the community to help prevent the diversion of controlled
pharmaceuticals.

       In addition, the Office of Diversion Control manages two systems that
allow the public to report suspicious Internet pharmacies. The first is the
Unlawful Medical Internet Reporting Effort (UMPIRE) accessed from the
DEA’s web site, and the second is the 1-877-RxAbuse telephone hotline. A
report received through the web site or hotline is forwarded to the DEA field
division located in the area where the complaint originated.

      The E-Commerce Section of the Office of Diversion Control maintains
two databases that are used at headquarters and in the field and serve as
analytical tools for diversion investigators. The Automation of Reports and
U.S. Department of Justice                                                                     6
Office of the Inspector General
Evaluation and Inspections Division
Consolidated Orders System (ARCOS) database contains information from
the pharmaceutical industry such as the path of Schedule II controlled
substances from point of manufacture to retail locations where they are sold
to consumers. 32 The E-Commerce Section provides quarterly and yearly
ARCOS reports to the field showing the most-ordered Schedule II controlled
pharmaceuticals and regulated chemicals in certain geographic areas. The
second database is an analytical search tool developed by the DEA and
private industry. Implementation of this database began in 2004, and
currently all DEA field divisions have access.

       Office of Enforcement Operations. The Office of Enforcement
Operations’ Pharmaceutical Investigations Section (OEP) in DEA
headquarters oversees diversion investigations. As described in a cable
from DEA headquarters to DEA staff worldwide in the fall of 2004, “OEP is
responsible for all domestic and international, criminal and/or complaint
investigations of pharmaceutical controlled substances. . . . OEP will
provide operational support to domestic field divisions’ . . . investigations
and other domestic projects having a pharmaceutical nexus.” Diversion
investigators in the unit who serve as staff coordinators monitor several field
divisions and serve as the divisions’ contact for funding requests, receive
and monitor reports of investigations from the field, and coordinate multi-
jurisdictional investigations.

      Special Operations Division. The Special Operations Division,
through its Pharmaceutical and Chemical Internet Coordination unit
established in the fall of 2004, supports the field by coordinating Internet
investigations, providing administrative support, and providing a liaison
between the field and certain intelligence resources located at headquarters.
The Special Operations Division ensures that all investigators who are
considering investigating a particular web site are aware of other DEA
investigative activities associated with the site.

        The Special Operations Division also responds to requests from the
field for intelligence information pertaining to specific web sites as part of
the DEA’s Online Investigations Project (OIP). 33 In July 2003, in a
memorandum to the Office of the Inspector General (OIG), the DEA stated

        32 All controlled substances, which include illicit drugs as well as those prescribed

for medical purposes, are assigned to one of five categories or schedules based upon the
substance's medicinal value, harmfulness, and potential for abuse or addiction. Schedule I
is reserved for the most dangerous drugs that have no recognized medical use, while
Schedule V is used for the least dangerous drugs. Controlled pharmaceuticals are found in
Schedules II through V.

       33 The OIP is a computer program that searches the Internet, using key words or
phrases to identify web sites possibly involved in the diversion of controlled substances.


U.S. Department of Justice                                                            7
Office of the Inspector General
Evaluation and Inspections Division
that the OIP was intended to be a “state of the art data mining and
warehousing system capable of rapidly detecting public domain web sites
offering the illicit sale of controlled substances” that would “identify
pharmacies and other businesses conducting illegal transactions via the
web.”

 Diversion Control Program Structure in the Field

      The DEA domestic field structure consists of 21 field division offices,
each headed by a SAC, and 234 sub-offices located throughout the United
States. Sixty-three of these offices and sub-offices have a diversion control
group of investigators led by a supervisor. As of June 2005, 482 of 535
diversion investigators were assigned to DEA domestic field divisions; the
remaining positions were in headquarters and in foreign field offices.

      Diversion investigators, special agents, and intelligence analysts are
the three types of employees in DEA field offices that have primary roles in
diversion investigations. The role of each is described below.

      Diversion investigators. Diversion investigators conduct regulatory
tasks, educate the public, coordinate with the pharmaceutical industry,
work with state and local officials engaged in diversion control, and
investigate pharmaceutical diversion.

       Diversion investigators’ regulatory tasks include conducting onsite
pre-registration investigations of all applicants proposing to manufacture,
distribute, import, or export controlled substances, or to operate a narcotic
treatment program as required by the Controlled Substances Act. The Act
also requires that the DEA conduct cyclic investigations of all
pharmaceutical manufacturers, distributors, importers, exporters, and
narcotic treatment programs. 34

       In addition, diversion investigators perform tasks to prevent and deter
the diversion of pharmaceuticals. They engage in demand reduction
activities, such as giving presentations to community organizations and
institutions about the dangers of non-medical pharmaceutical use, training
industry in how to comply with pertinent regulations of the Controlled
Substance Act, assisting businesses seeking to register with the DEA,
reviewing pharmaceutical labels, reviewing pharmaceutical companies’ drug
promotion and risk management plans, and establishing quotas for
controlled substances. Diversion investigators also provide diversion control
training to state and local officials and collaborate with states on their


       34   Currently, these cyclic investigations take place every 5 years.


U.S. Department of Justice                                                     8
Office of the Inspector General
Evaluation and Inspections Division
Prescription Drug Monitoring Programs. 35 The DEA Diversion Investigators
Manual directs diversion investigators to spend 45 percent of their time on
these and other regulatory activities.

       Diversion investigators also investigate and take action against
diverters of controlled pharmaceuticals. Diversion investigators initiate
investigations through the detection of violations or irregularities uncovered
during pre-registration or cyclic investigations, from complaints received
from members of the public or registrants, or from leads received through
intelligence sources. Targets of diversion investigations can be doctors,
pharmacists, drug organizations, or individuals. The DEA Diversion
Investigators Manual directs diversion investigators to spend 55 percent of
their time on enforcement activities.

      Diversion investigators are not criminal investigators and cannot
perform law enforcement functions such as serving warrants, conducting
surveillance, managing confidential informants, and working undercover.
Diversion investigators rely on special agents or other law enforcement
personnel when tasks requiring law enforcement authority are necessary.

       Special agents. Special agents either are assigned permanently to
assist diversion groups or are assigned temporarily to assist diversion
groups on specific investigations or tasks when requested. Special agents
assist diversion investigators by performing investigative tasks that require
law enforcement authority such as surveillance, registering and working
with confidential informants, serving search warrants, and making arrests.

       Tactical Diversion Squads. In 1996, the DEA created Tactical
Diversion Squads. The squads are composed of diversion investigators,
special agents, and state and local law enforcement personnel who work on
retail-level diversion cases, such as investigations of prescription forgers
and doctor shoppers. Tactical Diversion Squads currently are located in the
following five DEA field divisions: Denver, St. Louis, Houston, New Orleans,
and Boston.

       Intelligence analysts. Intelligence analysts also assist diversion
investigations. The primary functions of intelligence analysts are to collect,
collate, research, and analyze all available information on a particular
operation, investigation, organization, drug-related issue, program, or

        35 Prescription Drug Monitoring Programs are systems in which controlled

pharmaceutical prescription data are submitted to a centralized database administered by
an authorized state agency. These programs are designed to help prevent and detect the
diversion and abuse of controlled pharmaceutical substances, particularly at the retail level
where no other automated information collection system exists.


U.S. Department of Justice                                                           9
Office of the Inspector General
Evaluation and Inspections Division
project. They assist diversion investigators by analyzing data collected
through wiretaps or prescription records, preparing background profiles on
investigative targets, and performing database checks. Intelligence analysts
provide three primary types of support: 36

   •   Investigative – Assistance for ongoing cases, including telephone toll
       analysis, financial analysis, and debriefings of confidential
       informants;
   •   Tactical – Information such as identification of “traffickers,
       conveyances, methods of operation, and the movement of drugs” that
       allows immediate enforcement action to take place, such as arrests
       and seizures; and
   •   Strategic – Complex predictive and descriptive research and analysis
       regarding drug trafficking trends and issues.

Previous OIG Report on Pharmaceutical Diversion

       The 2002 OIG review of the DEA’s pharmaceutical diversion control
program concluded that the DEA’s enforcement efforts had not adequately
addressed the problem of controlled pharmaceutical diversion. 37
Specifically, we found that despite the widespread problem of controlled
pharmaceutical diversion and abuse, the DEA had been slow to commit
sufficient resources to address the problem. According to the DEA, special
agents spent only 3 percent of their total work hours on diversion
investigations, and the lack of special agent assistance negatively affected
the quality and timeliness of diversion investigations (since diversion
investigators lack law enforcement authority). 38 In addition, the DEA had
failed to resolve the question of the law enforcement authority for diversion
investigators, provided minimal intelligence support to diversion
investigators, and did not provide specialized training for special agents in
diversion investigations.

      In the 2002 review, we made four recommendations, and the DEA
concurred with all four. First, we recommended that the DEA increase
investigative resources devoted to the controlled pharmaceutical diversion

      36 Intelligence Program Policy Order 00-200, Responsibilities of Intelligence Analysts,

November 1999.

        37 See the OIG report entitled Review of the Drug Enforcement Administration’s

Control of the Diversion of Controlled Pharmaceuticals, I-2002-010, October 2002,
www.usdoj.gov/oig/reports/DEA/e0210/index.htm.

       38   This 3 percent figure was based on information from interviews with DEA
officials. In the current review, we used DEA work hour data to determine how much time
special agents spent on diversion investigations.


U.S. Department of Justice                                                          10
Office of the Inspector General
Evaluation and Inspections Division
program. Subsequently, the DEA obtained approval in its FY 2004 budget
for 75 additional diversion investigator positions. 39 Second, we
recommended that the DEA ensure adequate training for special agents in
diversion investigation procedures. In response, the DEA implemented a
week-long course on diversion investigation operations for special agents
who assist with diversion investigations.

       The third recommendation was for the DEA to clarify the roles,
responsibilities, and law enforcement authorities of diversion investigators.
On September 6, 2005, the DEA approved the reclassification of diversion
investigator positions to positions with law enforcement authority and is
now awaiting approval by the Department, the Office of Personnel
Management, and the Office of Management and Budget for the
reclassification. Finally, we recommended that the DEA fully implement the
Online Investigations Project and the diversion intelligence group to provide
effective intelligence support to the Office of Diversion, and that the DEA
continue to explore additional intelligence capabilities to support the
diversion investigators. The DEA has stated that the Online Investigations
Project is now fully implemented and that “although the OIP does not
perform in the manner originally intended (a push button system without
any user interaction), it has developed into a viable investigative tool that is
assisting field personnel in Internet investigations.” 40 The DEA also
received 40 additional field and headquarters intelligence analyst positions
and one intelligence support position located in the Special Operations
Division in its FY 2006 appropriation.




       39   The remaining positions are DEA special agent positions.

       40   The DEA’s December 20, 2005, response to the OIG’s 2002 review.


U.S. Department of Justice                                                    11
Office of the Inspector General
Evaluation and Inspections Division
                 PURPOSE, SCOPE, AND METHODOLOGY


Purpose

      The OIG conducted this review as a follow-up to our October 2002
review, which assessed the DEA’s actions to control pharmaceutical
diversion. This current review examined the changes to the DEA’s efforts to
manage the diversion of controlled pharmaceuticals in response to the
recommendations made in the previous report. Specifically, this review
assessed:

   •   the DEA’s actions in pharmaceutical diversion control since our 2002
       review,
   •   the amount of law enforcement and intelligence assistance the DEA
       provided for diversion investigations, and
   •   the DEA’s response to the growing problem of Internet diversion.

Scope

       Our review examined the DEA’s enforcement efforts to control
pharmaceutical diversion since our October 2002 report through FY 2005.
We limited our data analyses to the DEA’s domestic field divisions and
offices, except in our analysis of diversion using the Internet where we
considered all diversion work hours because Internet diversion crosses
national boundaries. We did not assess the diversion control program’s
regulatory function and did not examine its enforcement efforts against the
diversion of regulated chemicals. 41

Methodology

       To examine the DEA’s pharmaceutical diversion control program, we
reviewed federal laws, DEA policies and procedures, documentation related
to the DEA’s pharmaceutical diversion control efforts. To obtain information
on pharmaceutical abuse trends, we analyzed drug use studies from the
National Survey on Drug Abuse and Heath, Monitoring the Future, the Drug
Abuse Warning Network, a July 2005 report by the National Center on
Addiction and Substance Abuse of Columbia University, and other sources.


       41 The DEA’s regulated chemical control responsibilities originated with passage of

the Chemical Diversion and Trafficking Act (CDTA) in 1988. The CDTA and subsequent
amendments in 1993 have placed 34 chemicals “under control,” including ephedrine,
pseudo ephedrine, and red phosphorous. The CDTA also [“regulates”] equipment used in
the production of controlled substances, such as machines that form tablets.


U.S. Department of Justice                                                          12
Office of the Inspector General
Evaluation and Inspections Division
       Field work. We interviewed DEA headquarters staff, including the
DEA Administrator and Deputy Administrator; the Chief of Operations; the
Chief of Intelligence; the Deputy Assistant Administrator, Office of Diversion
Control; the Special Agent in Charge of training; the Special Agent in Charge
of the Special Operations Division; personnel within the Office of Diversion
Control, the Special Operations Division, and the Pharmaceutical
Investigations Section within the Operations Division; personnel within the
Office of Special Intelligence and the El Paso Intelligence Center within the
Intelligence Division; personnel within the Office of Resource Management
within the Financial Management Division; and personnel within the
Human Resources Division and on the Executive Policy and Strategic
Planning Staff.

       We also conducted site visits to eight DEA field offices: Washington,
D.C.; Baltimore, Maryland; New York City and Long Island, New York;
Miami and Ft. Lauderdale, Florida; and Denver and Colorado Springs,
Colorado. We selected the Miami Field Division because it was
recommended by the DEA during the entrance conference for this review
and by numerous interviewees as being very active in Internet diversion
investigations, the New York Field Division because it had recently split
diversion regulatory and enforcement functions into two separate groups
where the diversion enforcement group was composed of special agents and
diversion investigators, and the Denver Field Division because it had a
Tactical Diversion Squad and was recommended to us in an interview as
actively working with the Special Operations Division.

      During this review we interviewed special agents in charge, associate
and assistant special agents in charge, special agents, diversion program
managers, diversion group supervisors, diversion investigators, group
assistants, intelligence group supervisors, intelligence analysts, Assistant
United States Attorneys, and state and local law enforcement officers who
collaborated with the DEA in diversion investigations.

       We also attended presentations on the history of the structure and
threat of diversion, DEA’s online pharmacy trafficking strategy, intelligence
support for Internet investigations, intelligence technology supporting
Internet pharmacy investigations, Internet public awareness, Internet
training, Operation CybeRx, Operation Cyber Chase, Operation Baywatch,
Operation Cookie Dough, and Operation Gear Grinder.

      Survey. To obtain a broad perspective on the DEA diversion control
program, we conducted an e-mail survey of the 63 diversion groups and
5 Tactical Diversion Squads within DEA field offices, as defined in the DEA’s



U.S. Department of Justice                                              13
Office of the Inspector General
Evaluation and Inspections Division
table of organization. 42 Out of these 68 surveys sent, we received 62
responses for a response rate of 91 percent. The survey topics included law
enforcement and intelligence assistance for diversion investigations, the
DEA’s efforts to address the emerging threat of Internet diversion, and
diversion training for special agents and intelligence analysts. The
questionnaire is included in Appendix I.

      Data. To assess the DEA’s efforts and effectiveness at controlling
pharmaceutical diversion, we obtained and analyzed data from seven
sources: the Controlled Substances Act System, the Quarterly Report
Database, the Case Status Subsystem database, personnel data, the
1-877-RxAbuse hotline, the Unlawful Medical Internet Reporting Effort, and
the Work Hours Reporting System. In addition, we reviewed information
about specific training the DEA offered to its employees as well as a variety
of other documents.

       Work Hour Data. In this report, we include two analyses of special
agent and intelligence analyst work hour data to measure different aspects
of the DEA’s diversion control efforts. To differentiate between the two types
of work hour data included in this review, we refer to diversion
investigations as those initiated by diversion investigators that can involve
controlled pharmaceuticals or regulated chemicals and that can be criminal
or regulatory in nature; and pharmaceutical investigations as those that can
be initiated by diversion investigators or special agents, must involve
controlled pharmaceuticals only, and are criminal in nature. Table 1 below
describes the difference between diversion investigations and
pharmaceutical investigations.




       42 We did not send surveys to DEA offices defined on the DEA’s table of
organization as having “diversion staff” rather than a “diversion group” or “Tactical
Diversion Squad.”


U.S. Department of Justice                                                              14
Office of the Inspector General
Evaluation and Inspections Division
          Table 1: Types of Work Hour Analysis Included in Review
    Type of        Initiator of   Substances       Nature of      Source of
 Investigation   investigation     involved in   investigation      data
                                 investigation
Diversion        Diversion      Diverted         Criminal or    “2000 series”
                 investigators  controlled       non-criminal   data*
                                pharmaceuticals
                                or regulated
                                chemicals
Pharmaceutical Diversion        Diverted         Criminal       G-DEP
                 investigators  controlled                      data**
                 or special     pharmaceuticals
                 agents

* Every DEA investigation has a unique case number consisting of eight digits that specify
the (1) field division where it was initiated, (2) the fiscal year when it was initiated, and (3)
who initiated it. Cases initiated by diversion investigators are denoted as “2000 series”
cases.
** The G-DEP code is a five-character code the DEA assigns to all criminal investigations
indicating (1) the type of investigative target, (2) whether other agencies are involved in the
investigation, (3) the principal controlled substance or commodity involved in the
investigation, and (4) the geographic scope of the criminal activity under investigation.
Source: OIG Analysis

       While most investigations into the diversion of controlled
pharmaceuticals are initiated by diversion investigators, special agents may
initiate pharmaceutical investigations if they work in field offices where
there are no diversion investigators, if they obtain pharmaceutical diversion
information from a confidential informant, or if they discover a
pharmaceutical diversion link to an existing illicit drug investigation. (See
Appendix II for the complete explanation of the methodology we used for our
work hour analyses, and for a comparison of “2000 series” and G-DEP
data.)




U.S. Department of Justice                                                                15
Office of the Inspector General
Evaluation and Inspections Division
                            RESULTS OF THE REVIEW


Improvements in the DEA’s Pharmaceutical Diversion
Control Program

       Since our 2002 review, the DEA has taken important steps
       to improve its ability to control the diversion of controlled
       pharmaceuticals. The DEA added diversion control as a
       strategic goal in its strategic plan for FY 2003 – 2008,
       reorganized its Operations Division to include law
       enforcement for diversion control, provided additional
       intelligence resources to diversion investigators, and
       increased the number of domestic diversion investigators
       by 15 percent. Further, the DEA increased the number of
       criminal diversion investigations initiated by 23 percent
       since issuance of our 2002 report, and established
       performance measures for the diversion control program for
       the first time in FY 2005.

The DEA made diversion control one of its strategic goals.

      In 2003, the DEA made reducing the diversion of controlled
pharmaceuticals one of the agency’s four strategic goals in its strategic plan
for FY 2003 – 2008. Strategic Goal Four is to “reduce the diversion of licit
drugs” to “prevent, detect, and eliminate the diversion of [controlled
pharmaceuticals] into the illicit drug market.” Additionally, the DEA
Administrator reinforced the importance of diversion control in a January
2004 cable sent to all field divisions, stating that “stopping the abuse and
diversion of pharmaceutical controlled substances must be a DEA and
Department of Justice priority.”

The DEA increased resources for diversion control.

       In FY 2004, the DEA increased the investigative resources devoted to
the diversion control program by adding 75 diversion investigator positions.
This addition increased the number of authorized diversion investigator
positions in the DEA’s domestic field divisions by 15 percent in FY 2005.
The 75 positions were allocated among the DEA headquarters and field
divisions. In the FY 2006 budget, the DEA received 40 additional
intelligence analyst positions, one intelligence support position located in
the Special Operations Division, and 23 special agent positions that will be
dedicated to diversion control.



U.S. Department of Justice                                              16
Office of the Inspector General
Evaluation and Inspections Division
The DEA reorganized its Operations Division.

       In the fall of 2004, the DEA reorganized its Operations Division so
that all criminal enforcement activities, including those for diversion control,
were centralized into one unit. 43 By doing so, law enforcement operations
for diversion control were consolidated with those for illicit drugs.
According to one DEA manager, this integration of law enforcement
operations put more emphasis on criminal diversion investigations and
allowed the DEA to devote additional enforcement resources to addressing
the diversion of controlled substances. One DEA official in the Office of
Diversion Control said that the reorganization “energized and revitalized
diversion investigations.”

The DEA provided additional intelligence resources.

      Since our 2002 report, the DEA has provided additional intelligence
resources to assist investigators with pharmaceutical diversion
investigations, including Internet investigations. For example, the DEA
made the ARCOS database more timely and accessible to diversion
investigators. Sixty-three percent of the diversion group supervisors who
responded to our survey reported that they found ARCOS very useful, and
53 percent reported that they used it in all or most of their investigations.

       In 2004, the DEA also provided investigators with a new search tool in
the form of an analytical database used to develop investigations. Sixty
percent of our survey respondents reported that they found the new
analytical database very useful, and 61 percent reported that they used it in
all or most of their investigations. The DEA’s Director of E-Commerce told
us that without the new analytical database, compiling prescription
transaction histories would be manual and tedious and that histories now
can be compiled much more quickly. The DEA plans to create pre-defined
criteria to produce automatic reports and investigative leads from the new
database that can be pursued by field investigators.

      In June 2002, the DEA established a new intelligence unit at DEA
headquarters to support investigations that involve Internet-based
communications. According to DEA managers, most of this unit’s time is
spent supporting Internet pharmacy investigations. This unit helps
investigators analyze data obtained through pen registers and other



       43  Previously, enforcement operations were divided, with domestic and foreign
enforcement for illicit drugs managed by the Office of Enforcement Operations and
diversion control enforcement managed by the Office of Diversion Control.


U.S. Department of Justice                                                          17
Office of the Inspector General
Evaluation and Inspections Division
electronic documents and transactions; and coordinates analytical support
with Special Operations Division personnel. 44

The DEA undertook more criminal diversion investigations and
established formal performance measures.

       One indication that the DEA is responding to the growing problem of
diversion is the increase in the number of criminal diversion investigations
it has initiated since 2002. In FY 2005, the DEA initiated 950
investigations, which is 23 percent more criminal diversion investigations
than the 770 initiated in FY 2002. This increase in criminal diversion
investigations coincided with a decrease in non-criminal diversion
investigations. In FY 2002, the DEA initiated 1,440 non-criminal diversion
investigations; in FY 2005, it initiated 1,353 of these investigations. 45 In FY
2005, criminal diversion investigations represented approximately 6 percent
of the DEA’s overall criminal investigations for illicit and licit drugs.

        Furthermore, in the FY 2005 budget submission the DEA established
its first formal performance measures to quantify the accomplishments of its
diversion control program:

       1. The number of diversion drug organizations disrupted, measured
          by the total number of civil fines imposed, administrative hearings
          conducted, number of letters of admonition issued, and the
          number of registrations suspended or restricted; 46 and
       2. The number of diversion drug organizations dismantled, measured
          by the total number of registrations revoked, denied, or
          surrendered for cause.

The DEA’s performance measures showed that from FY 2002 to FY 2005 the
number of diversion drug organizations disrupted increased from 454 to
474 and the number of diversion drug organizations dismantled increased
from 474 to 594 (see Table 2).



       44  A pen register is an electronic device that records all numbers dialed from a
particular telephone line. Pen registers can also be used to track Internet communications.

       45  Non-criminal investigations include regulatory investigations (pre-registration and
cyclic investigations of registrants, which decreased from 793 to 632 between FY 2002 and
FY 2005) and other investigations involving administrative or civil violations (which increased
from 647 to 721 between FY 2002 and FY 2005).

       46 Organization includes Controlled Substance Act registrants, applicants, and
organizations.


U.S. Department of Justice                                                            18
Office of the Inspector General
Evaluation and Inspections Division
             Table 2: Number of Diversion Drug Organizations
                        Disrupted or Dismantled
                                FY 2002        FY 2003   FY 2004   FY 2005
 Disruptions                      454            435       461       474
 Dismantlements                   474            521       582       594
 Source: The DEA’s Case Status Subsystem database




U.S. Department of Justice                                             19
Office of the Inspector General
Evaluation and Inspections Division
Diversion of Controlled Pharmaceuticals Using the Internet

       Since 2002, diversion of controlled pharmaceuticals using
       the Internet has increased dramatically, and the DEA has
       increased the percentage of diversion investigators’ time
       applied to Internet investigations from 3 percent to 11
       percent.    The DEA has also developed an operational
       Internet strategy for performing Internet investigations.
       We examined several of the intelligence, technological, and
       investigative tools that are part of the DEA’s Internet
       strategy: the Online Investigations Project (OIP), hotlines
       for reporting suspicious Internet activity, undercover
       equipment, and training for diversion investigators on
       conducting Internet investigations. We found that while
       the DEA considers its Online Investigations Project to be
       fully implemented and a valuable tool, it does not
       automatically identify web sites with the highest volume of
       suspect pharmaceutical sales as originally intended. In
       addition, we found that most diversion groups still did not
       have undercover equipment necessary to conduct Internet
       investigations.  Further, while 54 percent of diversion
       investigators   had    received    training   in   Internet
       investigations, most had not received specialized training
       that would prove useful for conducting successful Internet
       investigations.

      As diversion using the Internet has become a greater concern, the
DEA has increased the number of pharmaceutical-related Internet
investigations from 10 in FY 2002 to 74 in FY 2005, and increased the
percentage of diversion investigators’ time applied to Internet diversion
during the same period from 3 percent to 11 percent. In addition, the DEA
developed an operational Internet strategy that guides investigators in
conducting investigations of online trafficking of controlled pharmaceuticals.
As part of our review, we examined several of the intelligence, technological,
and investigative tools that are part of this strategy

The DEA developed an operational Internet strategy.

      We found that since our previous review, the DEA developed in 2004
an operational Internet strategy. During our original field work, no DEA
personnel mentioned this strategy. However, after the exit conference DEA
management provided us with a copy of a PowerPoint presentation entitled
“On-line Pharmacy Trafficking Strategy.” DEA managers told us they
disseminated the strategy to field division special agents in charge, diversion


U.S. Department of Justice                                              20
Office of the Inspector General
Evaluation and Inspections Division
program managers, and diversion group supervisors at conferences during
2005.

       In interviews we
conducted after our exit                   Three Recent High-Profile
conference, one of the                 DEA-Led Internet Investigations
three diversion program
managers and all four        • Operation Cyber Chase. In April 2005, Operation
field division special         Cyber Chase targeted an organization that illegally
agents in charge said          distributed approximately 2.5 million dosage units of
                               controlled pharmaceuticals per month over the Internet.
they were aware of the         Operation Cyber Chase was an international operation
DEA’s Internet strategy        involving two DEA field divisions and one foreign office,
and described specific         and resulted in the arrest of 26 people in four countries
ways in which they had         and the seizure of 10 million dosage units of
applied elements of it to      pharmaceutical controlled substances, 231 pounds of an
                               animal tranquilizer (Ketamine), and $8.5 million.
their investigations.
The two other diversion      • Operation CYBERx. In September 2005, Operation
program managers               CYBERx dismantled an organization that was averaging
mentioned elements of          more than $50,000 a day in profits from their illegal
the strategy, but were         Internet-based enterprise. The operation resulted in 19
                               arrests, immediate suspension orders against 20
not aware of the               pharmacies and physicians, and the seizure of $16.8
strategy itself. DEA           million in cash and property.
headquarters managers
said that field              • Operation Gear Grinder. In December 2005, Operation
personnel may not have         Gear Grinder targeted eight major steroids
                               manufacturing companies whose combined illicit
been aware of the              Internet sales of steroids smuggled from Mexico totaled
strategy, even though          $56 million a year and resulted in 9 arrests. These
many of these                  companies were the source of 82 percent of all steroids
personnel had used             seized in the Unites States and analyzed by DEA
tools such as the OIP          laboratories.
that are a part of the
strategy. Further, they explained that the strategy is not finalized but
rather is considered a “work in progress” so that it can be frequently revised
to reflect changes in diversion using the Internet. According to these DEA
managers, the strategy was used in several recent Internet operations that
disrupted major Internet pharmaceutical traffickers.

       The DEA’s Internet strategy contains five elements:

   •   Targeting and Analysis – Identify trends and investigate suspicious
       Internet pharmacy activity;
   •   Technology – Develop and implement new resources to collect
       information about suspicious Internet pharmacy activity;



U.S. Department of Justice                                                      21
Office of the Inspector General
Evaluation and Inspections Division
   •   Legislation – Attempt to change laws either to make operating illegal
       online pharmacies more difficult or to make prosecuting operators of
       illegal online pharmacies easier;
   •   Demand Reduction – Establish hotlines the public can use to report
       suspicious online pharmacies, issue public service announcements,
       and create Internet sites to educate the public about controlled
       pharmaceutical abuse; and
   •   Training and Education – Establish training courses for DEA
       personnel; other federal, state, and local law enforcement officers; and
       Assistant U.S. Attorneys.

       In her April 6, 2006, testimony to the United States House of
Representatives Committee on Appropriations, Subcommittee on Science,
the Departments of State, Justice, and Commerce, and Related Agencies,
the DEA Administrator said that “The strategy calls for DEA to coordinate
its Internet investigations with federal, state, and local agencies, and
provide training for investigators, prosecutors, the pharmaceutical industry,
and DEA registrants.”

The DEA has implemented intelligence, technological, and
investigative tools for Internet diversion investigations.

      We examined several of the DEA’s intelligence, technological, and
investigative tools that are part of its Internet strategy: the Online
Investigations Project, hotlines for reporting suspicious Internet activity,
undercover equipment, and training for diversion investigators on
conducting Internet investigations. Below is a discussion of what we found.

       The Online Investigations Project (OIP). In our 2002 review, we
recommended, and the DEA concurred, that the DEA fully implement the
OIP, which it had begun to develop in 2001. Originally, the DEA told us
that the OIP would allow diversion investigators to “focus their efforts on
potential diverters rather than spending valuable time surfing the Web for
leads.” 47 The DEA planned the OIP to function proactively by searching the
Internet using criteria commonly found in web sites that illegally distribute
controlled substances to identify those web sites that had the highest
volume of controlled pharmaceutical orders and that were accessed the
greatest number of times so that the DEA could identify and prioritize them
for investigation.




       47   The DEA’s July 1, 2003, response to the OIG’s 2002 review.


U.S. Department of Justice                                               22
Office of the Inspector General
Evaluation and Inspections Division
       In December 2005, the DEA notified the OIG that it considered the
OIP to be operational, but stated that the OIP has limited practical
application as a proactive targeting tool and can only access for retrieval
that which is publicly available on the Internet. Therefore, the OIP is
ineffective identifying sites with the highest volume of controlled
pharmaceutical orders and those sites most frequently accessed. In
January 2006, DEA managers reported that the OIP was functioning as “a
viable investigative tool that is assisting field personnel in Internet
investigations.” 48 While the OIP is not able to proactively identify the
Internet pharmacies receiving the most orders so that investigations can be
prioritized, DEA officials told us that analysts are using it to efficiently
synthesize large amounts of information about web sites that are already
under investigation. According to DEA managers, the OIP scans
information that is publicly available on the Internet to find connections
between web sites under investigation and pertinent information such as
addresses, phone numbers, e-mail addresses, and other web sites. DEA
analysts then transfer the OIP’s search results to charts that display these
connections and provide the charts to field investigators to assist in their
investigations.

      According to the DEA, the OIP is capable of efficiently scanning large
amounts of data. For example, between July 2005 and May 2006, the DEA
stated that it used the OIP to scan 4 million web pages from 42,694 sites in
7,300 hours. The DEA estimated that this task would have taken 60,000
analytical staff hours without the OIP. 49

       Hotlines. In June 2004, the DEA established the Unlawful Medical
Internet Reporting Effort (UMPIRE), which is linked to the DEA’s web site
and allows the public to report suspicious Internet pharmacies. In January
2005, the DEA created the 1-877-RxAbuse telephone hotline for the public
to anonymously report the illegal sale and abuse of prescription drugs.
Reports received through the web site and telephone hotline are forwarded
to the DEA field divisions where the complaints originated, and then either
addressed by the DEA or disseminated to local law enforcement agencies.

      Of survey respondents who had received leads from the telephone
hotline, 20 percent had initiated investigations based on those leads. No
respondents who had received leads through the web-based system had


       48   The DEA’s February 8, 2006, informal comments on this review.

       49 This is a rough estimate based on the number of hours it would likely take an

analyst to perform an analysis minus the number of hours it would take the OIP to produce
the same analysis. This time savings was then multiplied by the number of analyses that
the OIP has produced since July 2005.


U.S. Department of Justice                                                        23
Office of the Inspector General
Evaluation and Inspections Division
initiated investigations based on those leads. The DEA personnel we
interviewed stated that the leads typically involved lower-level diversion,
such as “doctor shoppers,” rather than the higher-level diversion
conspiracies that diversion group members said they preferred to
investigate.

       Undercover equipment. Our review also found that most diversion
investigators did not have undercover equipment – such as undercover
credit cards and computers – needed for certain types of Internet
investigations. Based on survey responses, 84 percent of the diversion
groups had undercover computers that allowed investigators to conduct
business on the Internet without being traced to the DEA. However, survey
respondents and interviewees reported that it was not very useful to have an
undercover computer without an undercover credit card that they could use
to establish Internet service provider accounts, obtain Post Office boxes, and
place orders for pharmaceuticals. Of the survey respondents who suggested
that additional resources were needed for conducting Internet
investigations, 51 percent mentioned the need for an undercover credit card.
Moreover, in some of the 2004 Pharmaceutical Threat Assessments, DEA
personnel stated that problems with establishing undercover identities were
impeding diversion investigations:

   •   “There are possible [Internet] leads but the diversion group is not yet
       able to explore them properly due to the need for investigators to
       obtain undercover identities.”
   •   “[The Internet] has shown that to conduct a proper investigation of an
       Internet company the process of obtaining undercover documents
       must be streamlined . . . .”
   •   “There are numerous potential Internet cases . . . that cannot be
       pursued due to the lack of undercover driver’s licenses and
       undercover credit cards.”

       DEA headquarters’ managers stated that they were aware that the
scarcity of undercover credit cards was a hindrance in the field. In
response, during the fall of 2005 the DEA administered a pilot undercover
credit card program in three field divisions. The DEA also provided
documentation that on March 10, 2006, it had begun implementing a
program to issue undercover credit cards to three to five diversion
investigators or special agents selected by the Diversion Program Manager
in each field division. These credit cards were intended exclusively for
purchasing pharmaceuticals over the Internet. The DEA managers expected




U.S. Department of Justice                                               24
Office of the Inspector General
Evaluation and Inspections Division
all diversion investigators to have access to undercover credit cards and to
receive training in their appropriate use by June 2006. 50

       In addition, DEA managers informed us that the DEA had begun
establishing a virtual private network to link the undercover computers in
each DEA field division to DEA headquarters so that investigative
information and analysis can be passed between headquarters and the field
securely. DEA managers stated that thus far the virtual private network
had been implemented in the Atlanta, Phoenix, Los Angeles, and Miami field
divisions.

      Internet diversion training for diversion investigators. The DEA
has established several training courses pertinent to investigations of
diversion using the Internet. We found that over half of the 482 diversion
investigators had attended the DEA’s Internet Telecommunications
Exploitation Program training. However, few diversion investigators have
attended additional specialized courses that would be useful for conducting
Internet investigations, as shown in Table 3.

                Table 3: Training for Diversion Investigators in
                            Internet Investigations
                                            Number of diversion           Percentage of FY
                                             investigators who             2005 on-board
                                                 attended,                    diversion
          Training course                   FY 2002 – FY 2005               investigators
 Internet Telecommunications
                                                      263                      54.6
 Exploitation Program
 Diversion Internet*                                    89                     18.5
 Asset Forfeiture Training                              50                     10.4
 Conspiracy and Complex
                                                        33                      6.8
 Investigations Training
 Financial Investigations Seminar
                                                        32                      6.6
 and Techniques
 FinCEN Training**                                       7                      1.5
* This training was discontinued after FY 2004.
** Training in accessing the Financial Crimes Enforcement Network database.


Source: The DEA’s Office of Training

In addition, we found that 5 percent of diversion investigators had attended
the Internet Pharmacy and Controlled Substance Pharmaceutical Diversion
Prosecution Seminar sponsored by the National Advocacy Center. 51

       50 As of June 8, 2006, 6 of the DEA’s 21 domestic field divisions had at least one
undercover credit card for diversion investigations and 12 field divisions were still in the
process of obtaining their first card.


U.S. Department of Justice                                                              25
Office of the Inspector General
Evaluation and Inspections Division
       According to survey respondents and interviewees, knowledge and
training in financial analysis and conspiracy investigations are particularly
important for conducting Internet investigations because Internet operations
are often geographically dispersed. The pharmacy, drug supplier, web site
server, web site programmer, and physicians involved could be in different
states or even in different countries. In addition, the anonymity of the
Internet, in which businesses can easily hide their identity and financial
transactions, makes diversion investigations more complicated.
In interviews with the OIG, diversion investigators stated that their lack of
training impeded their ability to conduct these difficult and technically
challenging investigations.

       One diversion program manager that we interviewed stated that
additional and ongoing training in Internet investigations was needed for
diversion investigators. In survey responses, diversion investigators echoed
this statement:

   •   “More in-depth Internet classes should be conducted. The 3-day
       classes are not adequate.”
   •   “Hands-on long-term training on the use of the Internet to make
       undercover buys [is needed].”
   •   “Diversion Investigators need ongoing technical training related to the
       Internet. . . . As the internet becomes more sophisticated, the
       frequency and level of training needs to be increased.”

      We asked DEA officials about the low numbers of diversion
investigators who attended Internet-related training courses other than the
Internet Telecommunications Exploitation Program training. They stated
that the DEA’s training resources are limited and that providing Internet
Telecommunications Exploitation training to diversion investigators is a
DEA priority.




       51 The National Advocacy Center is a joint venture of the National District Attorneys
Association and the Department that provides prosecution-related training.


U.S. Department of Justice                                                           26
Office of the Inspector General
Evaluation and Inspections Division
Continuing Concerns in the DEA’s Diversion Control Program

       Despite the positive steps the DEA has taken to improve its
       ability   to    control    the   diversion    of   controlled
       pharmaceuticals, we identified several continuing concerns
       about the DEA’s diversion control program. We found that
       although the need for special agent assistance in diversion
       investigations had increased since our 2002 review, the
       work hours spent by special agents on diversion control
       still constituted a small share of their total investigative
       time. In addition, few special agents had received specific
       diversion control training beyond the 2-hour module
       provided during basic agent training. Moreover, diversion
       investigators still lack law enforcement authority, despite
       the DEA’s efforts to reclassify their positions. Further, the
       support provided by intelligence analysts to diversion
       groups in the field continued to be limited, and intelligence
       analysts received minimal training in diversion control.

Special agent assistance for pharmaceutical diversion control
investigations still represents a small share of their total investigative
time even though the need for their support has increased.

       Similar to our 2002 review, we found that special agent assistance for
pharmaceutical and diversion investigations was still a small share of their
total investigative time. The assistance of special agents is crucial because
diversion investigators do not have the law enforcement authority to
conduct surveillance, work with confidential informants, serve search
warrants, or make arrests.

      To examine the issue of special agent support for diversion control, we
considered five sources: analysis of work hour data based on special agent
assistance to diversion investigations (“2000 series” data); analysis of work
hour data based on special agent investigative time spent on
pharmaceutical investigations (G-DEP data); interviews of DEA personnel;
DEA Pharmaceutical Threat Assessments; and survey responses of diversion
group supervisors.

      Work hour data analyses. Both work hour data analyses indicated
that while the time special agents spent on diversion control increased since
our 2002 review, it still represented a small amount of special agents’ total
investigative time. Between FY 2002 and FY 2005, the amount of time
special agents spent on diversion investigations, measured by the hours
they charged to investigations initiated by diversion investigators, increased
from 14.8 work years to 27.4 work years. Even with this 85 percent

U.S. Department of Justice                                              27
Office of the Inspector General
Evaluation and Inspections Division
increase, the actual percentage of special agent time spent on diversion
investigations increased from only 0.6 percent to 1.0 percent of their total
investigative time between FY 2002 and FY 2005 (Table 4).

                    Table 4: Special Agent Work Years Spent
                       Assisting Diversion Investigations
         Number of Special Agent Work Years                      FY 2002             FY 2005
   Spent on diversion investigations                                14.8                27.4
   Spent on diversion and illicit drug
                                                                 2,376.8             2,722.6
   investigations
   Percentage spent on diversion investigations                       0.6                 1.0
 Note: The investigative work years do not include time spent on other types of activities such as
 administrative duties or training.
 Source: The DEA’s Work Hour Reporting database reporting 2000 series data


      Using data from the DEA’s G-DEP system as a measure of time spent
on pharmaceutical investigations, we found that between FY 2003 and FY
2005 special agents increased the time they spent on pharmaceutical
investigations from 26.8 work years to 57.4 work years, an increase of 114
percent. However, this still accounted for only 1.2 percent of special agent
investigative time in FY 2003 and 2.2 percent in FY 2005 (see Table 5).

                    Table 5: Special Agent Work Years Spent
                       on Pharmaceutical Investigations
         Number of Special Agent Work Years                      FY 2003             FY 2005
   Spent on pharmaceutical investigations                           26.8                57.4
   Total spent on pharmaceutical and illicit drug
                                                                 2,376.8             2,722.6
   investigations
   Percentage spent on pharmaceutical
                                                                      1.2                 2.2
   investigations
 Note: The investigative work years do not include time spent on other types of activities such as
 administrative duties or training.
 Source: The DEA’s Work Hour Reporting database based on G-DEP data


       Diversion investigators’ need for special agent support. While
special agents can initiate pharmaceutical investigations, most
pharmaceutical investigations are still initiated by diversion investigators
who do not have law enforcement authority. Therefore, special agent
assistance in these cases is crucial. The DEA has recognized the
importance of adequate special agent support for several years. For
example, on August 3, 2001, the DEA’s Chief of Operations issued a
directive stating: “To ensure that the diversion investigators have consistent
access to special agent personnel, each diversion group in every division
office will have two (2) special agents assigned full time to support their
activities.” The DEA’s plans were delayed when, after the September 11,

U.S. Department of Justice                                                                      28
Office of the Inspector General
Evaluation and Inspections Division
2001, terrorist attacks, many federal law enforcement agents, including
DEA agents, were assigned to assist the Federal Bureau of Investigation on
counter-terrorism task forces. However, almost 5 years later, we found that
of the DEA’s 27 diversion groups located in field offices, only 1 reported
having 2 full-time special agent positions authorized to assist with diversion
investigations, 5 reported having 1 agent, and 20 reported having no agents
assigned. 52

     The DEA reiterated the need for special agent assistance in a
September 6, 2005, memorandum to the Department, which stated that:

       Because the [diversion] workforce lacks the enforcement status
       required to engage in all requisite investigative activities, DIs
       must obtain the support of DEA Special Agents or state /local
       police officers to perform the enforcement functions needed to
       develop evidence of criminal violations identified during
       compliance investigations. Such a requirement often results in
       delays and/or errors in the investigation due to the
       unavailability (or limited availability) of law enforcement
       personnel and/or the latter’s insufficient knowledge of the
       registrant community’s processes and practices. 53

       During our field work, one SAC explained that the criminal aspects of
a diversion investigation may not be fully developed because of the lack of
special agent assistance. Diversion investigators we spoke with reinforced
this point. They stated that developing criminal diversion investigations
often requires undercover surveillance or use of a confidential informant
and that they might not pursue the criminal aspects of the investigation
because they could not rely on receiving special agent assistance.

      In addition, 58 percent of survey respondents stated that the lack of
available law enforcement support from special agents sometimes or often
caused delays in diversion investigations. Diversion group supervisors and
investigators also explained that they had to work around the schedules of
the special agents, causing the diversion investigation to be delayed.

      Seventy-six percent of the respondents to our survey stated that they
most often relied on state, local, or other federal agencies, rather than DEA
special agents, to provide law enforcement assistance in their
pharmaceutical diversion cases. Several interviewees and survey

       52   One of the 27 diversion groups did not respond to our survey.

       53Memorandum from the DEA Administrator to the Assistant Attorney General for
Administration, “Request for Establishment of a New Series,” September 6, 2006.


U.S. Department of Justice                                                    29
Office of the Inspector General
Evaluation and Inspections Division
respondents also said that while they appreciated the assistance they
received from DEA special agents, such assistance often did not fully
support their investigations. For example, survey respondents stated:

   •   “When we request assistance [from DEA special agents] for short term
       projects we receive excellent support, such as for the execution of a
       search warrant. Long term investigations, such as undercover buys,
       are more difficult since there are extensive demands on the [DEA]
       enforcement group that provide us with support. We have found it
       more useful to get assistance for long term investigations from our
       state counterparts. These state counterparts are tasked with doing
       the same type of complaint or criminal investigations as diversion
       investigators but have full arrest powers.”

   •   “I normally receive assistance from state/local agencies or other
       federal agencies. . . . When we are ready to make arrests I then get
       special agents from the DEA involved. With the requirements for
       various assignments it is difficult for a DEA special agent to spend
       time with diversion investigators.”
   •   “Agents are responsible for their own priorities. They assist on such
       things as search warrants, arrest warrants when needed, and some
       undercover buys. However, they are not available for long term needs
       such as surveillance.”

       According to diversion investigators we interviewed, when the
diversion groups received assistance from DEA special agents it was
typically for specific law enforcement tasks such as executing arrest
warrants or making undercover buys, rather than as ongoing partners in
the diversion investigation. Fifty-three percent of the survey respondents
said that they were “somewhat satisfied” and seven percent were “not at all
satisfied” with law enforcement assistance from DEA special agents.

       Situations in which diversion personnel were satisfied with
special agent support. In contrast, we found instances where diversion
personnel were satisfied with their working relationships with special agents
and enthusiastic about the accomplishments of these partnerships. This
was primarily the case in DEA field divisions where special agents and
diversion investigators were assigned to the same group or where the field
division had been involved in a major diversion operation. Diversion
investigators assigned to these groups described the working relationship
with the special agents as “tremendous,” “excellent,” “a breath of fresh air,”
“outstanding,” and “instrumental.” The diversion investigators assigned to
the groups also said they gained criminal investigative knowledge from the
special agents. Table 6 describes the groups of diversion investigators and
special agents.
U.S. Department of Justice                                              30
Office of the Inspector General
Evaluation and Inspections Division
Table 6: Partnerships between Special Agents and Diversion Investigators
                  Location                                   Description of Partnership
 Baltimore, Detroit, El Paso, Miami,                One or two special agents assigned to a
 Phoenix, San Antonio, San Diego                    diversion group
 Boston, Houston, New Orleans, St. Louis*           Tactical Diversion Squads that include
                                                    special agents, diversion investigators, and
                                                    law enforcement officers from other agencies
 New York City                                      Tactical Diversion Group of special agents
                                                    and diversion investigators
 Seattle                                            Two diversion investigators assigned to an
                                                    enforcement group
 * At the time of our field work, the Denver Tactical Diversion Squad did not have a special agent
 assigned.
 Source: OIG Diversion Group Supervisor Survey and interviews with DEA personnel


      During our review, the DEA provided four examples of complex
diversion operations to which SACs dedicated significant personnel over a
long period of time. 54 For example, the SAC of the Dallas Field Division
informed us that he dedicated the entire staff of the Fort Worth field office to
an investigation of an Internet pharmacy that took over seven months to
complete. In fact, we found that these four large operations accounted for
22 percent of time that special agents spent on pharmaceutical
investigations in FY 2005. (See Chart 2).

       Chart 2: Share of Special Agent Criminal Investigative Hours
                    by Type of Investigation, FY 2005
                                                                                Four Operations

                                               Chemical &
                                               Clandestine
                        Ilicit Drug
                                                Diversion




                                                Pharmaceutical
                                                  Diversion

                                                                   Other Pharmaceutical Diversion

                 All Criminal Investigations                      All Pharmaceutical Investigations
Source: The DEA’s Work Hour Reporting database




       54The four DEA operations are Operations Cyber Chase, CYBERx, Gear Grinder,
and Cookie Dough.


U.S. Department of Justice                                                                    31
Office of the Inspector General
Evaluation and Inspections Division
Few special agents have received training in diversion control.

       Similar to what we found in our 2002 review, few special agents have
received specific diversion control training, although the growing number of
criminal diversion investigations has since increased the need for special
agent involvement in diversion cases. 55 Diversion investigators that we
interviewed during our current review stated that the inexperience and
unfamiliarity of DEA special agents sometimes impeded or delayed
investigations. This problem was also highlighted in the DEA’s
Pharmaceutical Threat Assessments. Among the comments in the
assessments were:

   •   “DEA enforcement groups . . . either do not know or do not
       understand what is required to successfully prosecute the types of
       cases that the diversion investigators investigate on a daily basis.”

   •   “Agents don’t often comprehend or want to comprehend how the
       diversion investigations are done because they don’t reflect the types
       of cases that they normally do.”

      In our 2002 review, we recommended that the DEA train special
agents in diversion investigation procedures. The DEA concurred with this
recommendation and noted that each special agent received a 2-hour
module on diversion control during basic agent training. Yet, this module,
which represented only 0.2 percent of the basic training hours for special
agents, included a 30-minute video produced in 1996 that did not cover
current diversion control issues, including using the Internet to divert
pharmaceuticals. DEA officials informed us that they currently are
updating the video.

       In responding to our 2002 recommendation, the DEA also stated that
it planned to initiate additional training for special agents assigned to
diversion investigations. The first week-long Special Agent Diversion School
took place in FY 2004. However, as of April 2006, the DEA had convened
five classes and reported that 98 of its 5,013 special agents had attended
the training. DEA officials stated that the DEA eventually intends to send
all special agents who assist with diversion investigations to this school, but
due to limited training funds and training facility space, no additional
classes were planned for FY 2006.



       55As discussed previously, between FY 2002 and FY 2005, the DEA increased the
number of criminal diversion investigations it initiated from 770 to 950, an increase of
approximately 23 percent.


U.S. Department of Justice                                                        32
Office of the Inspector General
Evaluation and Inspections Division
      Separately, the DEA has provided training on Internet investigations
for special agents conducting investigations involving diversion using the
Internet. As of April 2006, 34 percent (1,699) of special agents had attended
the DEA’s 3-day Internet Telecommunications Exploitation Program, which
includes a 1-day module that highlighted Operation Cyber Chase. Also,
during 2004 and 2005, 11 special agents attended the Internet Pharmacy
and Controlled Substance Pharmaceutical Diversion Prosecution Seminar, a
seminar sponsored by the National Advocacy Center.

Diversion investigators still lack law enforcement authority.

       We recommended in our 2002 review that the DEA clarify diversion
investigator’s roles, responsibilities, and law enforcement authority. The
DEA concurred with this recommendation and in response has taken steps
to reclassify the diversion investigator position to one with law enforcement
authority. Table 7 summarizes the DEA’s reports to the OIG about its
efforts since September 2002.




U.S. Department of Justice                                              33
Office of the Inspector General
Evaluation and Inspections Division
   Table 7: Timeline of the DEA’s Actions to Reclassify the Diversion
     Investigator Position to One with Law Enforcement Authority
                         Since 2002 OIG Review
    Date                                            Action
   9/26/02      The DEA concurs with OIG recommendation to make a decision regarding
                the roles, responsibilities, and law enforcement authorities of diversion
                investigators and reports that DEA management is reviewing a decision
                paper to be discussed at a 10/16/02 SAC advisory meeting.
   1/15/03      The DEA forwards a decision paper seeking to reclassify the diversion
                investigator position to one with law enforcement authority to the Deputy
                Attorney General, whose approval would initiate a 10-year conversion
                process. Various Department components must also review the paper.
   7/25/03      The Department requests additional information and clarification from the
                DEA.
  10/29/03      The DEA provides the Department with the additional information
                requested.
    4/8/04      The DEA reports that it is waiting for a decision from the Department.
   9/27/04      The DEA reports that the Department requested additional information
                concerning demographics of the current diversion investigator workforce
                and that it is conducting a survey of diversion investigators to collect the
                necessary information.
   7/29/05      The DEA reports that it plans to request a new law enforcement job series
                for diversion investigators.
     9/6/05     The DEA provides the Department with a proposal to reclassify the
                diversion investigator position to one with law enforcement authority
                through a new law enforcement job series different from the special agent
                series.
  12/20/05      The DEA reports that it is optimistic that the Department will support the
                request to reclassify the diversion investigator position to one with law
                enforcement authority through a new job series, but that a final decision
                has not been reached.
 Source: DEA responses to the OIG’s 2002 review


       The DEA’s current proposal, submitted to the Department’s Justice
Management Division in September 2005, is to create a new job series for
diversion investigators who would focus on criminal diversion
investigations. The new diversion investigator position would be a “hybrid
position” with full law enforcement investigative authority while also
requiring the full knowledge and skills of the diversion investigator. The
position would have both regulatory duties and investigative responsibilities.
All diversion investigators hired once the plan was implemented would be
hired under this new job series. Current diversion investigators would be
reclassified to the new position if they meet certain requirements, including
standards concerning age and physical capabilities. A recent DEA survey
found that 88 of the 340 current diversion investigators (26 percent) who
responded met the eligibility requirements. According to the DEA, the “roles
and responsibilities of current diversion investigators who do not reclassify


U.S. Department of Justice                                                            34
Office of the Inspector General
Evaluation and Inspections Division
[to the new law enforcement position] will be minimally affected” because
they will devote their time to regulatory work. 56

       As of May 2006, the DEA’s proposal was awaiting approval from the
Department, after which it must be approved by the Office of Personnel
Management and the Office of Management and Budget. If approved, the
DEA will need to take a series of steps to implement it. First, the conversion
will require an increase in the registration fees used to fund the Diversion
Control Fee Account. 57 Second, the DEA will need to reclassify, train, and
assign current eligible diversion investigators, a process the DEA estimates
will take 9 months. Third, given that only about one fourth of the current
diversion investigators may be eligible for conversion, the DEA will need to
recruit, hire, and train a substantial number of people for the new position,
a process the DEA estimates will take 18 months.

         Therefore, despite the DEA’s efforts, diversion investigators are not
likely to receive law enforcement authority anytime soon. We believe that
until the DEA receives approval and fully implements this initiative, it needs
to ensure that its diversion investigators receive sufficient special agent
support.

Intelligence analyst assistance in the field is limited.

       Similar to what we found in our previous review, intelligence analyst
assistance in the field was limited. Work hour data analyses based on
“2000 series” cases and G-DEP identifiers indicated that the time that
intelligence analysts spent on diversion control had increased since our
2002 review. However, it still represented a small proportion of intelligence
analysts’ total investigative time.

       In our 2002 review, we recommended that the DEA provide effective
intelligence support to the Office of Diversion Control, and that the DEA
continue to explore additional intelligence capabilities to support the
diversion investigators. The DEA concurred with the recommendation.

      Since our 2002 report, the number of work years that intelligence
analysts spend on diversion investigations, measured by the hours they
charged to investigations diversion investigators initiated, has increased 143

       56   The DEA’s December 20, 2005, response to the OIG’s 2002 review.

        57 The Diversion Control Fee Account is administered by the DEA to recover the full

costs of operating the various aspects of its diversion control program. The account is
funded by registration fees paid by manufacturers, distributors, dispensers, importers and
exporters of controlled substances and List I chemicals as required by the Controlled
Substances Act.


U.S. Department of Justice                                                          35
Office of the Inspector General
Evaluation and Inspections Division
percent, from 2.5 work years in FY 2002 to 6.0 work years in FY 2005.
Nevertheless, the 6.0 work years still represent less than 3 percent of all
intelligence analyst investigative work years (Table 8).

                Table 8: Intelligence Analyst Work Years Spent
                       Assisting Diversion Investigations
   Number of intelligence analyst work years                      FY 2002            FY 2005
   Spent on diversion investigations                                  2.5                6.0
   Spent on diversion and illicit drug
                                                                     181.0             214.6
   investigations
   Percentage spent on diversion investigations                        1.4                2.8
   Note: The total work years for intelligence analysts do not include time spent on other
   types of activities such as administrative duties or training.

   Source: The DEA’s Work Hour Reporting Database based on 2000 series data


      Using data from the DEA’s G-DEP system as a measure of all time
spent on pharmaceutical cases, we found that between FY 2003 and FY
2005 intelligence analysts increased the number of work years spent on
pharmaceutical investigations from 3.4 work years to 11.4 work years, an
increase of 235 percent. This accounted for 1.7 percent of intelligence
analyst investigative time in FY 2003 and 5.3 percent in FY 2005 (see
Table 9).

                Table 9: Intelligence Analyst Work Years Spent
                   Assisting Pharmaceutical Investigations
   Number of intelligence analyst work years                       FY 2003           FY 2005
   Spent on pharmaceutical investigations                              3.4               11.4
   Spent on pharmaceutical and illicit drug
                                                                     181.0             214.6
   investigations
   Percentage spent on pharmaceutical
                                                                       1.7                5.3
   investigations
 Note: The total work years for intelligence analysts do not include time spent on other types of
 activities such as administrative duties or training.

 Source: The DEA’s Work Hour Reporting database based on G-DEP data


       Three-quarters of the respondents to our survey stated that the need
for intelligence support had increased since 2002. According to
interviewees, the diversion control program’s increased need for intelligence
assistance was largely because of the growth of diversion using the Internet.
Forty-five percent of the respondents said they were “somewhat satisfied”
with intelligence support and 27 percent said they were “not at all satisfied”
with intelligence support. Approximately one-third said that intelligence
analysts in the field never provided sufficient support.



U.S. Department of Justice                                                                      36
Office of the Inspector General
Evaluation and Inspections Division
      According to our survey results, 71 percent of group supervisors
received intelligence support regarding specific cases; however, only
32 percent received intelligence regarding general trends in diversion and
23 percent received intelligence regarding specific targets to consider for
investigation. Receiving intelligence on trends in pharmaceutical diversion
and specific potential investigative targets would allow diversion
investigators to focus their efforts on the most significant threats.

       Eleven survey respondents as well as interviewees in each field
division that we visited stated that the most effective way to provide
intelligence support was to assign an intelligence analyst to their diversion
groups, as they commonly have been assigned to enforcement groups
working on illicit drug investigations. Assignment to a specific diversion
group would allow intelligence analysts to remain up-to-date and
knowledgeable about current investigations and would create a more
effective, long-term working partnership between investigator and analyst.
Otherwise, diversion investigators who request assistance have to familiarize
the intelligence analyst with the entire investigation.

       Fifty-five percent of survey respondents said that the lack of
permanent support from field intelligence analysts “sometimes” or “often”
delayed investigations. Of the 62 diversion group supervisors who
responded to our survey, none had an intelligence analyst permanently
assigned to their group. Instead, 81 percent stated that they had to request
intelligence analyst assistance on a case-specific basis, 3 percent said they
received intelligence support through a diversion task force (such as a
Tactical Diversion Squad), and 16 percent said they received no intelligence
support at all from the field. Because they did not have an intelligence
analyst assigned to their group, diversion investigators relied on ad hoc,
request-specific intelligence support. If diversion investigators had a
particular need for intelligence during the course of an investigation, they
requested assistance for only that specific task, such as a database check or
analysis of prescription records or financial transactions.

       Respondents’ comments to our survey highlight the limited field
intelligence analyst assistance and diversion investigators’ perception that
their investigations are a lower priority compared to illicit drug
investigations:

   •   “We have requested assistance and have received some very limited
       help. Diversion investigations are not as important as special agent
       investigations. When something better comes along, our support
       leaves.”
   •    “In the eleven years I have served as a Diversion Group Supervisor,
       we have received minimal assistance on only ONE case and that was

U.S. Department of Justice                                              37
Office of the Inspector General
Evaluation and Inspections Division
       over four years ago. We receive absolutely no assistance from
       intelligence analysts . . . . It has been made perfectly clear to my
       investigators that the analyst in our office is here to assist the special
       agents and that leaves no time for our cases.”
   •    “When I ask for support from Intel for case assistance, I have to make
       the request through the assistant SAC. If they are working on Agent
       cases, the Agents get priority. Since Agents almost always have cases
       that Intel is assisting them on, Diversion often doesn’t get assistance.
       We are low man on the totem pole.”

       Intelligence analysts that we interviewed who stated that diversion
investigators did not know what intelligence assistance they could obtain
reflected diversion investigators’ limited experience with receiving field
intelligence support. These intelligence analysts stated that sometimes
diversion personnel asked for intelligence products at the wrong point of an
investigation or asked intelligence analysts to perform data entry or prepare
visual aids for meetings, indications that diversion investigators were
unfamiliar with the role of intelligence analysts in investigations.

       When we spoke to DEA managers about the perceived lack of field
intelligence support to diversion investigations, they explained that
historically, intelligence analysts were often assigned to, and provided
support to, specific enforcement groups. This gave the enforcement groups
direct access to intelligence support, while diversion groups had indirect
access. However, recently DEA field divisions have begun to provide
intelligence support based on the priority of the investigation, regardless of
whether the investigation involves illegal drugs or controlled
pharmaceuticals.

       As with special agent support for pharmaceutical diversion
investigations, we found evidence that the DEA provided significant
intelligence support for certain major diversion investigations. In FY 2005,
four large diversion operations accounted for 44 percent of all intelligence
analyst work hours on criminal pharmaceutical investigations (Operations
CybeRx, Cyber Chase, Gear Grinder, and Cookie Dough). (See Chart 3.)




U.S. Department of Justice                                                38
Office of the Inspector General
Evaluation and Inspections Division
Chart 3: Share of Intelligence Analysts Criminal Investigative Hours by
                    Type of Investigation, FY 2005

                                                                       Four Operations
                                          Chemical &
               Ilicit Drug                Clandestine
                                           Diversion




                                      Pharmaceutical
                                        Diversion
                                                            Other Pharmaceutical Diversion
        All Criminal Investigations                     All Pharmaceutical Investigations
Source: The DEA’s Work Hour Reporting database

Intelligence analysts receive minimal diversion training.
       We found that intelligence analysts received only minimal training in
diversion control, such as training on the laws pertaining to diversion,
methods of diversion, and commonly diverted substances. Similar to what
we found with special agent training in diversion control, the only training
that intelligence analysts receive in diversion is a 2-hour module included in
their basic training that represents only 0.5 percent of the training hours for
intelligence analysts.

        The need for training in diversion control for intelligence analysts is
particularly important because, as previously mentioned, intelligence
analysts have historically not been assigned to specific diversion groups.
For example, a special agent in charge told us that intelligence analysts
must become familiar with diversion control through appropriate training.
In addition, an intelligence group supervisor whom we interviewed stated
that intelligence analysts sometimes considered diversion control
investigations to be a “foreign entity” compared with illicit drug
investigations. Another diversion group supervisor said that intelligence
analysts may be accustomed to analyzing thousands of telephone calls in an
illicit drug investigation, but are not as accustomed to analyzing millions of
prescriptions from an Internet pharmacy for a diversion control
investigation. This group supervisor stated that some diversion cases are
more difficult for intelligence analysts than illicit drug investigations.




U.S. Department of Justice                                                         39
Office of the Inspector General
Evaluation and Inspections Division
                  CONCLUSION AND RECOMMENDATIONS


      Since our 2002 review, the DEA has taken steps to improve its ability
to control the diversion of controlled pharmaceuticals, especially
pharmaceutical diversion using the Internet. However, there are still some
areas in need of further improvement in the DEA’s diversion control efforts
that we identified and reported in 2002.

       Since 2002, the DEA has added diversion control as a strategic goal in
its strategic plan for FY 2003 – 2008, reorganized its Operations Division to
include law enforcement operations for diversion control, provided
additional intelligence resources to investigators, and increased its
authorized domestic diversion investigator positions by 15 percent from
FY 2002 to FY 2005. Further, the DEA increased the number of criminal
diversion investigations initiated by 23 percent since issuance of our 2002
report and established the first performance measures for the diversion
control program in FY 2005.

       Since our previous review, diversion using the Internet has become a
growing threat. The DEA has increased the percentage of diversion
investigator time applied to Internet diversion investigations and developed
an operational Internet strategy for guiding investigators in conducting
Internet investigations. However, it has not ensured that diversion
investigators have the necessary tools, such as undercover credit cards, and
training to conduct successful investigations of diversion using the Internet.

      We also found that the DEA had increased the amount of time that
special agents devoted to diversion control since our last review.
Nonetheless, this still represents a very small percentage of DEA special
agents’ overall efforts at a time when the need for special agent assistance in
diversion cases has increased. In addition, while 34 percent of special
agents have attended a 3-day training course that is applicable to Internet-
related investigations, only 98 special agents have attended the DEA’s week-
long course specifically concerning diversion. Also, we found that the
complicated issue of providing law enforcement authority for DEA diversion
investigators has not been resolved, although the DEA has been actively
pursuing the matter.

       Finally, with the growing threat of diversion using the Internet and
the overall growth of diversion in general, the need for intelligence analysts
has increased. While we found that the DEA has implemented certain new
intelligence resources pertinent to diversion investigations, similar to what
we found in our previous review, intelligence analyst assistance remains


U.S. Department of Justice                                               40
Office of the Inspector General
Evaluation and Inspections Division
limited in the field. Further, training for intelligence analysts on diversion
issues is minimal.

       To make more progress in reducing the illegal diversion of controlled
pharmaceuticals, the DEA must address these conditions by ensuring that
criminal diversion investigations receive adequate assistance from special
agents and intelligence analysts who have been trained in the intricacies of
this type of investigation. Further, because diversion using the Internet is a
growing threat, the DEA must also ensure that investigators have the
necessary tools and training to conduct successful Internet investigations.

     We are therefore making six recommendations to help the DEA
improve its ability to address the growing problem of diversion of controlled
pharmaceuticals.

       We recommend that the DEA:

       1. Provide diversion investigators with adequate special agent support
          until the conversion of the DEA diversion investigator position to
          one with law enforcement authority is fully implemented.
       2. Ensure that DEA special agents who frequently assist with
          diversion investigations attend the week-long diversion training
          school.
       3. Provide training to intelligence analysts on topics that effectively
          support diversion investigations.
       4. Update the diversion control training video used in basic special
          agent and intelligence analyst training to include current diversion
          issues such as diversion using the Internet.
       5. Ensure that diversion investigators receive training in skills
          necessary for conducting Internet investigations, such as financial
          investigations.
       6. Fully implementation of the program to provide undercover credit
          cards to diversion investigators.




U.S. Department of Justice                                                 41
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX I: GROUP SUPERVISOR QUESTIONNAIRE


                                                      Department of Justice
                                             Office of the Inspector General
                                          Evaluation & Inspections Division




DEA Diversion Control Program Questionnaire

INTRODUCTION

The Department of Justice Office of the Inspector General is conducting a review of the
Drug Enforcement Administration’s (DEA) diversion control program. Specifically, we are
examining the DEA’s enforcement efforts regarding controlled pharmaceutical diversion.
We completed our last review in this area in October 2002.

As part of the review, we are conducting this survey of diversion investigator, special agent,
or other Group Supervisors involved in diversion control to obtain information regarding
DEA’s diversion control operations. Your input is very important to us. For tracking
purposes, it is important that you include your name on the survey, but your identity will
remain confidential and will not be used in any survey results. All responses will be
reported in the aggregate only.

DIRECTIONS: This survey should be completed by every Group Supervisor directly
responsible for coordinating and supervising either:
    • a DEA diversion group,
    • a DEA enforcement group that focuses on diversion, or
    • a Tactical Diversion Squad or other task force devoted to diversion control.
Unless otherwise noted, please answer the survey questions as they relate to current
operations for your group only.

We prefer that you answer this questionnaire electronically. To do so, please click your
cursor in the indicated shaded area and type your response. After you have completed the
questionnaire, please save the document and e-mail it as an attachment to the following
address: xxx@usdoj.gov. If necessary, you may print out the questionnaire, fill it out
manually, and fax it to (xxx) xxx-xxx.

We estimate that it will take you less than one hour to complete this questionnaire. Please
return the completed questionnaire by September 9, 2005.

Thank you for your assistance.




U.S. Department of Justice                                                             42
Office of the Inspector General
Evaluation and Inspections Division
NOTE: For this survey, “diversion investigations” refers only to criminal/civil/complaint
investigations, not scheduled or cyclic investigations.

A. BACKGROUND INFORMATION

 Name
 Position (e.g., diversion investigator, special
 agent)
 DEA Field Division (e.g., Phoenix Field
 Division)
 DEA Office (e.g., Tucson, AZ, District Office)
 Phone Number

 Address


B. ORGANIZATION OF YOUR GROUP

1. How many of each of the following authorized positions is assigned to your group
   (including yourself)? (Enter a number in each row. If your group has no positions for a
   particular position, enter “0”.)
                Diversion investigators
                Special agents
                Intelligence analysts
                Task force officers
                Other (Describe:)

2. How many, if any, vacant positions do you currently have for each of the
   following in your group?
   (Enter a number in each row. If your group has no vacancies for a particular position,
   enter “0”.)
               Diversion investigators
                Special agents
                Intelligence analysts
                Task force officers
                Other (Describe:)

3. Approximately what percentage of time does your group spend on the following?
   (Enter a percentage in each row. The column total should equal 100%.)
                Complaint/criminal/civil
                investigations
                Cyclic/scheduled investigations
                Pre-registrant investigations
                All other activities
      100%      TOTAL



U.S. Department of Justice                                                            43
Office of the Inspector General
Evaluation and Inspections Division
C. LAW ENFORCEMENT SUPPORT FOR DIVERSION INVESTIGATIONS

4. Which of the following best describes the involvement of DEA special agents in
   your group’s diversion investigations? (Check one box.)
           One or more special agents is permanently assigned to work with my group.
           I request the assignment of special agents who are part of a DEA enforcement group to
           assist with diversion investigations on a case-specific basis.
           I request the assignment of special agents who are part of a task force devoted to
           diversion investigations (i.e., Tactical Diversion Squad or Diversion Response Team) to
           assist my group on a case-specific basis. This task force is led by DEA or another law
           enforcement group.
           DEA special agents are not involved in my group’s diversion investigations.
           (Please explain why:)



5. Which of the following best describes the availability of law enforcement support
   that you receive from DEA special agents? (Check one box.)
          The availability of DEA special agent support allows diversion investigations to
          continue without delay.
          The availability of DEA special agent support sometimes causes delays in
          diversion investigations.
          The availability of DEA special agent support often delays diversion
          investigations.

6. Which of the following best describes the amount of law enforcement support that
   your group receives from DEA special agents? (Check one box.)
          DEA special agents always provide a sufficient amount of law enforcement
          support for diversion investigations.
          DEA special agents usually provide a sufficient amount of law enforcement
          support for diversion investigations.
          DEA special agents never provide a sufficient amount of law enforcement
          support for diversion investigations.
          (Please explain why:)



7. How satisfied are you with the law enforcement support that your group receives
   from DEA special agents? (Check one box.)
          Very satisfied
           Somewhat satisfied
           Not at all satisfied


       7a. If you answered “Not at all satisfied” to Q7, explain why:




U.S. Department of Justice                                                          44
Office of the Inspector General
Evaluation and Inspections Division
8. Which of the following best describes the involvement of local/state/other federal
   law enforcement personnel that assist in your group’s diversion investigations?
   (Check one box.)
           Other law enforcement personnel are part of a task force (led by DEA or other
           law enforcement group) devoted to diversion investigations.
           Other law enforcement personnel are part of a task force (led by DEA or other
           law enforcement group) not dedicated to diversion investigations, but the
           personnel assist with my group’s diversion investigations when necessary.
           Other law enforcement personnel are not part of any task force but we work
           with them informally on a case-specific basis.
           We have no local/state/other federal law enforcement involvement in our
           diversion investigations.

9. What type of law enforcement personnel do you work with most often to support
   your group’s diversion investigations? (Check one box.)
           DEA special agents
           Other federal law enforcement personnel
           State/local law enforcement personnel
           Other (Describe:)



10. In 2005, approximately how many of the controlled pharmaceutical diversion
   investigations conducted by your group required some type of law enforcement
   support? (Check one box.)
                All investigations
                Most investigations
                Some investigations
                 No investigations

11. Since 2002, would you say that the need for law enforcement support in diversion
   investigations for your group has increased, stayed the same, or decreased?
   (Check one box.)
               Increased
               Stayed the same
               Decreased




U.S. Department of Justice                                                         45
Office of the Inspector General
Evaluation and Inspections Division
           The availability of DEA intelligence support allows diversion investigations to
           continue without delay.
           The availability of DEA intelligence support sometimes causes delays in
           diversion investigations.
           The availability of DEA intelligence support often delays diversion
           investigations.

21. Which of the following best describes the amount of intelligence support that your
   group receives from DEA intelligence analysts in the field? (Check one box.)
          DEA intelligence analysts always provide a sufficient amount of intelligence
          support for diversion investigations.
          DEA intelligence analysts usually provide a sufficient amount of intelligence
          support for diversion investigations.
          DEA intelligence analysts never provide a sufficient amount of intelligence
          support for diversion investigations.
          (Please explain why:)



22. Which of the following statements represent the types of DEA intelligence that
   your group receives from DEA headquarters or from the field? (Check all that
   apply.)
           My group receives intelligence for specific investigations when we request it.
           My group receives intelligence regarding specific diversion targets to consider
           for investigation.
           My group receives strategic intelligence regarding general trends in diversion.
           My group receives another type of intelligence. (Describe:)


23. For what types of diversion investigations would you be most likely to request
   intelligence support? (Check all that apply.)
           For priority target investigations (CPOT, RPOT)
           For OCDETF investigations
           For HIDTA investigations
           For investigations involving complex financial transactions
           For investigations involving toll analysis
           For investigations involving the Internet
           Other (Describe:)


24. How satisfied are you with the intelligence support that your group has received
   from the intelligence group in your office? (Check one box.)
          Very satisfied
           Somewhat satisfied
           Not at all satisfied

       24a. If you answered “Not at all satisfied” to Q24, explain why:



U.S. Department of Justice                                                           48
Office of the Inspector General
Evaluation and Inspections Division
25. In 2005, approximately how many of the controlled pharmaceutical investigations
   conducted by your group required some type of intelligence support? (Check one
   box.)
          All investigations
           Most investigations
           Some investigations
           No investigations

26. Since 2002, would you say that the need for intelligence support in diversion
   investigations for your group has increased, stayed the same, or decreased?
   (Check one box.)
           Increased
           Stayed the same
           Decreased

27. Describe any additional intelligence resources (e.g., access to investigative leads,
   intelligence analysts, or databases) necessary for your group to conduct diversion
   investigations: (Describe:)

E. DIVERSION INVESTIGATIONS
The following section asks about your interaction with the Special Operations Division
(SOD) in headquarters and your familiarity with its Webcrawler program/Online
Investigations Project. The Webcrawler program/Online Investigations Project allows SOD
to provide data, such as IP address and registration information, regarding specific
websites or email addresses.
28. In 2005, how many of the following diversion investigations has your group
   initiated?
   (Enter a number in each row.)
            Investigations of controlled pharmaceutical diversion involving the Internet
            (i.e., suspicious Internet pharmacies or email addresses)
            Investigations of controlled pharmaceutical diversion not involving the
            Internet.

29. Since 2002, would you say that the number of the following diversion
    investigations that your group has conducted has increased, stayed the same, or
    decreased? (Check one box in each row.)
                                                  Stayed                     Have not
                                        Increased   the      Decreased      conducted
                                                   same                        any
     Investigations of controlled
     pharmaceutical diversion
     involving the Internet (i.e.,
     suspicious Internet pharmacies or
     email addresses)
     Investigations of controlled
     pharmaceutical diversion not
     involving the Internet.
30. Do you contact the Special Operations Division prior to initiating an Internet
    investigation?
    (Check one box.)

U.S. Department of Justice                                                           49
Office of the Inspector General
Evaluation and Inspections Division
             Yes
             No
             Unsure
             Have not initiated any Internet
             investigations

31. Has the Special Operations Division ever provided your group with information
   gathered through the Webcrawler? (Check one box.)
            Yes
             No
             Unsure
             Have not initiated any Internet
             investigations

       31a. If you answered “Yes” to Q31, how satisfied were you with the Webcrawler
             information that was provided? (Check one box.)
                          Very satisfied
                       Somewhat satisfied
                        Not at all satisfied

32. Which of the following types of undercover equipment does your group have for
   conducting Internet investigations? (Check all that apply.)
            Computer
             Credit card
             Internet Service Provider account (such as AOL)
             Internet connection (i.e., DSL, cable modem, or dial-up
             connection)
             Post Office box

33. Which of the following types of undercover equipment has your group used for
   conducting Internet investigations? (Check all that apply.)
            Computer
             Credit card
             Internet Service Provider account (such as AOL)
             Internet connection (i.e., DSL, cable modem, or dial-up
             connection)
             Post Office box

       33b. If you have not used any of the undercover equipment in Q33, please
            explain why:
          (Describe:)

34. Describe any additional resources that are necessary for your group to conduct
   the following investigations. (Describe in each row.)
    Investigations of controlled
    pharmaceutical diversion involving the
    Internet (i.e., suspicious Internet

U.S. Department of Justice                                                    50
Office of the Inspector General
Evaluation and Inspections Division
    pharmacies or email addresses)
    Investigations of controlled
    pharmaceutical diversion not involving
    the Internet.

35. In 2005, how many cases involving controlled pharmaceutical diversion from your
   group have been presented and accepted by the U.S. Attorneys’ Office? (Enter a
   number in each row.)
            Number of cases presented to the U.S. Attorneys’ Office
              Number of cases accepted by the U.S. Attorneys’ Office


F. TRAINING

36. Other than the Basic Diversion Investigator Training Course received by all
   diversion investigators, which of the following additional training courses have
   been taken by diversion investigators in your group? (Check all that apply)
             Asset forfeiture training
              Financial investigation seminar
              Conspiracy and complex investigation training
              GATEWAY training
              Internet telecommunications exploitation school (offered by SOD)
              Other (Describe:)



37. How adequate is the training that the diversion investigators in your group have
   received?
   (Check one box.)
             Very adequate
              Mostly adequate
              Not adequate

       37a. If you answered “Not adequate” to Q37, what additional training would be
          useful for diversion investigators in your group? (Describe:)

38. Have the diversion investigators in your group received any specific training
   regarding how to prepare cases for the U.S. Attorneys’ Office? (Check one box.)
            Yes
              No
              Unsure


       38a. If you answered “No” to Q38, please describe any additional resources
             that the diversion investigators in your group have access to for
             assistance in preparing cases for the U.S. Attorneys’ Office? (Describe:)



U.S. Department of Justice                                                        51
Office of the Inspector General
Evaluation and Inspections Division
G. CONCLUSION

39. In your opinion, how true are each of the following statements? (Check one box in
   each row.)
                                                    Very   Somewhat   Not true   Don’t
                                                    true     true      at all    know
    The problem of diversion has grown in my
    DEA office’s geographic area since 2002.
    The availability of controlled
    pharmaceuticals available over the Internet
    has increased substantially since 2002.
    In general, the nature of the problem has
    changed from lower-level diversion (i.e.,
    doctor shoppers) to higher-level diversion
    (i.e., organized drug rings selling large
    quantities of controlled pharmaceuticals)
    since 2002.
    The DEA’s efforts to control the diversion of
    pharmaceuticals have improved since 2002.




U.S. Department of Justice                                                       52
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX II: SCOPE OF THE OIG REVIEW REGARDING
      CONTROLLED SUBSTANCES AND COMMODITIES


      To reach the best estimate of time devoted by the DEA to
pharmaceutical cases, we present two special agent and intelligence analyst
work hour analyses based on two different data sets. The first analysis is
based on “2000 series data” and is a measure of the time that that special
agents and intelligence analysts spent assisting diversion investigations.
The second analysis is based on G-DEP data and is a measure of all time
spent on pharmaceutical investigations by special agents and intelligence
analysts.
       Diversion investigations. Every DEA investigation has a unique case
number consisting of eight digits that specify the (1) field division where it
was initiated, (2) the fiscal year when it was initiated, and (3) who initiated
it. Cases initiated by diversion investigators are denoted as “2000 series”
cases.
      Pharmaceutical investigations. The G-DEP code is a five-character
code the DEA assigns to all criminal investigations indicating (1) the type of
investigative target, (2) whether other agencies are involved in the
investigation, (3) the principal controlled substance or commodity involved
in the investigation, and (4) the geographic scope of the criminal activity
under investigation. There are 51 principal controlled substances captured
by the G-DEP code. According to the DEA, 29 of a possible 51 substances
related to the diversion of controlled pharmaceuticals; however, we
concluded that only 15 were within the scope of this review.
The 15 substances classified with a G-DEP identifier and included in our
review are:

   •   Methylphenidate
   •   Fentanyl (and its generics)
   •   Ketamine (and its analogues)
   •   Opioid Treatment Pharmaceuticals
   •   Hydromorphone (Dilaudid)
   •   Schedule II Pharmaceutical Narcotic
   •   Schedule II Pharmaceutical Non-Narcotic
   •   Schedule III Narcotic
   •   Benzodiazepine
   •   All Other Pharmaceutical Controlled Substances
   •   Oxycodone

U.S. Department of Justice                                                53
Office of the Inspector General
Evaluation and Inspections Division
   •   Hydrocodone
   •   Palladone
   •   Steroid (pharmaceutical)
   •   Pharmaceutical Cocaine
The remaining 14 of the 29 substances not included in our review (for
reasons stated) are:

   •   Methaqualone – This is a schedule I drug not being legally
       manufactured or imported.
   •   GHB/GBL/BD (and other GHB analogues) – This is an active
       ingredient for one Schedule II pharmaceutical, but not a
       pharmaceutical.
   •   Unspecified Analogues – This is an ingredient in controlled
       pharmaceuticals, but not a pharmaceutical controlled substance.
   •   Amphetamine/Stimulant Related Chemical – This is a listed chemical,
       and thus, outside of our scope.
   •   Pseudo ephedrine – This is a listed chemical, and thus, outside of our
       scope.
   •   Ephedrine – This is a listed chemical, and thus, outside of our scope.
   •   Hallucinogen-Related Chemical – This is a listed chemical, and thus,
       outside of our scope.
   •   Iodine/Red Phosphorus – This is a listed chemical, and thus, outside
       of our scope.
   •   Depressant-Related Chemical – This refers to chemicals, and is thus,
       outside of our scope.
   •   Chemical Equipment (non-drug-specific) – Chemical equipment is not
       a controlled substance.
   •   Depressant (clandestine) – Clandestinely produced substances are not
       diverted drugs.
   •   Other Stimulant (clandestine) – Clandestinely produced substances
       are not diverted drugs.
   •   Steroid (clandestine) – Clandestinely produced substances are not
       diverted drugs.
   •   No Specific Drug – This code is used for controlled pharmaceuticals as
       well as illicit drugs.

      Comparison of “2000” series and G-DEP Work Hour Data. The DEA
informed us that there is no perfect way to capture the entire universe of all
pharmaceutical investigations. However, both of the methods we present –
using “2000 series” case data and using G-DEP code data for the 15

U.S. Department of Justice                                              54
Office of the Inspector General
Evaluation and Inspections Division
principal controlled substances within the scope of our review – have
advantages and disadvantages, as described in Table 1.

   Table 1. Comparison of “2000 Series” and G-DEP Work Hour Data
                            “2000 Series” Data                        G-DEP Data
 Basis for data        Based on an investigation’s        Based on the G-DEP substance
                       case number. The “2000             identifier of investigation. We
                       Series” data represents            concluded that there were 15
                       investigations initiated by        principal controlled substances
                       diversion investigators.           captured by the G-DEP code that
                                                          were within the scope of our
                                                          review.
 Time period of data   Data is available for the entire   Data is only available for
                       review period, FY 2002 –           FY 2003 – FY 2005.*
                       FY 2003.
 Substances            All cases initiated by diversion   The identifier allows for analysis
 included in           investigators are captured,        of specific substances. Diversion
 analysis              regardless of the controlled       cases on substances not selected
                       substance involved.                are not captured.
 Disadvantages of      Pharmaceutical investigations      Deciding which of the 51
 data set              initiated by special agents are    substance identifiers to include is
                       not captured.                      subjective.

                       Chemical diversion                 Time spent on non-criminal
                       investigations outside the         diversion investigations is not
                       scope of our review are            captured because only criminal
                       captured.                          cases are assigned G-DEP codes.

                                                          The identifier for the substance
                                                          only indicates the lead drug and
                                                          is sometimes changed during the
                                                          investigation.

* Because the DEA restructured the list of principal controlled substances or
commodities in 2002, FY 2002 data based on the G-DEP code is not comparable to more
recent data, and our analysis of G-DEP data covers only FY 2003 through FY 2005.




U.S. Department of Justice                                                             55
Office of the Inspector General
Evaluation and Inspections Division
     APPENDIX III: DEA’S RESPONSE TO DRAFT REPORT




U.S. Department of Justice                      56
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            57
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            58
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            59
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            60
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            61
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            62
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            63
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            64
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            65
Office of the Inspector General
Evaluation and Inspections Division
     APPENDIX IV: OIG’S ANALYSIS OF DEA’S RESPONSE



       On June 9, 2006, the Office of the Inspector General (OIG) sent a copy
of the draft report to the Drug Enforcement Administration (DEA) with a
request for written comments. The DEA responded to us in a memorandum
dated June 28, 2006.

DEA Response

       In its response, the DEA disagreed with several of the OIG’s
conclusions concerning the amount of assistance special agents and
intelligence analysts provide to DEA diversion investigations. Specifically,
the DEA expressed concern with the OIG’s exclusion of certain G-DEP
substance identifiers from the analysis of pharmaceutical diversion
investigation work hours. 58 According to the DEA, this exclusion led to OIG
conclusions that were “not fully representative of the pharmaceutical drug
threat and DEA’s activities.” Also, the DEA disagreed with the OIG
conclusion that intelligence analyst assistance to diversion investigations
has remained limited. According to the DEA, intelligence analysts’ work
hours spent on diversion investigations increased 58 percent from 2003 to
2005. The DEA also stated that 67 percent of the 60 respondents to an OIG
survey reported that intelligence analysts “always or usually provided” a
sufficient amount of intelligence support for diversion investigations. The
DEA also stated that the OIG overlooked “ongoing budget shortfalls” that
limit the manpower support the DEA is able to provide for the diversion
control program.

      Although the DEA disagreed with several of the report’s conclusions,
it concurred with five of the six OIG recommendations. However, the DEA
did not state concurrence or nonconcurrence with the recommendation to
“Provide diversion investigators with adequate special agent support until
the conversion of the DEA diversion investigator position to one with law
enforcement authority is fully implemented,” because, in the DEA’s opinion,
the recommendation was “unnecessary.” Nonetheless, the DEA presented
an action plan for addressing that recommendation as well as for the five
with which it concurred. The DEA also offered several minor technical
corrections to the report that we incorporated in the final version of the
report, as appropriate.

       58
           G-DEP is the DEA’s case identification system that indicates, among other
things, the primary substance involved in an investigation. There are 51 G-DEP substance
identifiers.


U.S. Department of Justice                                                       66
Office of the Inspector General
Evaluation and Inspections Division
OIG Analysis of the DEA Response

      While we believe that the actions undertaken and planned by the DEA
to improve its ability to address the growing problem of the diversion of
controlled pharmaceuticals are responsive to our recommendations, we
address the DEA’s specific comments on our conclusions below.

The OIG’s exclusion of 14 G-DEP identifiers from the analysis of
pharmaceutical diversion work hours

       The DEA stated that the OIG’s work hour data analysis based on the
G-DEP substance identifiers “is overly restrictive and excludes key data.”
Specifically, the DEA stated that excluding the work hours charged to
investigations denoted by 14 additional G-DEP substance identifiers
“renders conclusions that are not fully representative of the pharmaceutical
drug threat and DEA’s activities.” According to the DEA, “for consistency,
this review should reflect work hours expended under all relevant G-DEP
identifiers just as in the 2002 review.” The substances denoted by the 14
additional G-DEP identifiers are methaqualone, GHB/GBL/BD, unspecified
analogues, amphetamine/stimulant related chemical, pseudoephedrine,
ephedrine, hallucinogen related chemical, iodine/red phosphorous,
depressant related chemical, chemical equipment (non-drug specific),
depressant (clandestine), other stimulant (clandestine), steroid (clandestine),
and “No Specific Drug.”

       OIG Analysis. The DEA’s assessment of our G-DEP work hour
analysis is incorrect. In its calculations, the DEA inappropriately included
work hours for investigations that did not involve pharmaceuticals. In
addition, the DEA incorrectly characterized the work hour analysis
contained in our 2002 report. In Appendix II of this report, we list the 29
G-DEP substance identifiers that the DEA stated were related to the
diversion of pharmaceuticals and our rationale for excluding 14 of these
identifiers that we deemed not to be within the scope of this review. The 14
excluded G-DEP substance identifiers fall into the following five categories.

      First, we excluded 7 of the 14 G-DEP substance identifiers because
they are chemicals, not controlled pharmaceuticals. As noted in the scope
statement of this report (page 12), “Our review examined the DEA’s
enforcement efforts to control pharmaceutical diversion since our October
2002 report through FY 2005. . . . We did not assess the diversion control
program’s regulatory function and did not examine its enforcement efforts
against the diversion of regulated chemicals.” In addition, because this
review is a follow-up review to one conducted in 2002, the scope of this
review was guided by the scope of the previous review, which also excluded


U.S. Department of Justice                                              67
Office of the Inspector General
Evaluation and Inspections Division
chemicals and was entitled Review of the Drug Enforcement Administration’s
Control of the Diversion of Controlled Pharmaceuticals (I-2002-010).

       Second, we excluded 3 of the remaining 7 G-DEP substance
identifiers because they are clandestinely produced substances and
therefore cannot be “diverted” in the way we define that term in this report
since they were never in the legal distribution chain.

       Third, we excluded 2 of the remaining 4 G-DEP substance identifiers
because they are ingredients used to make pharmaceuticals and not
controlled pharmaceuticals themselves. Ingredients do not represent
“diverted pharmaceuticals” because they must be combined with other
ingredients in order to become controlled pharmaceuticals.

      Fourth, we excluded 1 of the remaining 2 G-DEP substance identifiers
because it refers to a Schedule I drug. Schedule I drugs have no legal
medical use and therefore are rarely diverted pharmaceuticals. 59 Therefore,
the vast majority of work hours spent on this Schedule 1 drug reflects illicit
production.

      Finally, we excluded hours charged to investigations in which the
G-DEP identifier was listed as “No Specific Drug” because we found that
most of the hours in this category did not relate to pharmaceuticals.
Although we explored the possibility with the DEA of extracting the “No
Specific Drug” investigations that pertained specifically to controlled
pharmaceuticals and including data about those cases in our analysis, the
DEA informed us that this would not be possible without an extensive
manual case file review. Further, when DEA personnel conducted a manual
review of a small subjective sample of “No Specific Drug” investigations, they
found that most of the investigations reviewed did not pertain to controlled
pharmaceuticals.

      The decision about whether to include hours in the “No Specific Drug”
category was critical to reaching the most accurate analysis possible
because, of the 29 G-DEP substance identifiers that the DEA said were
related to the diversion of pharmaceuticals, the “No Specific Drug” category
contained the most hours. In fact, this category accounted for 30 percent of
the combined work hours for the 29 G-DEP substance identifiers and 72
percent of the work hours for the 14 G-DEP substance identifiers that we
excluded from this review.



      59 Small amounts of Schedule 1 drugs may be legitimately produced by

manufacturers for research purposes.


U.S. Department of Justice                                                   68
Office of the Inspector General
Evaluation and Inspections Division
       To further test the reasonableness of our decision to exclude “No
Specific Drug” investigations, we checked the number of work hours
diversion investigators charged to this category. We posited that if many
“No Specific Drug” investigations were related to diversion, then diversion
investigators would have charged a substantial number of hours to this
category. We therefore examined the percentage of time that diversion
investigators charged to the “No Specific Drug” category out of the total time
they charged to the 29 G-DEP substance identifiers that the DEA said were
related to the diversion of controlled pharmaceuticals. We found that
diversion investigators charged only 0.26 percent of their work hours to the
“No Specific Drug” category, while special agents charged 49 percent, task
force officers 43 percent, and intelligence analysts 37 percent.

       We also examined whether diversion investigator work hours made up
a significant share of total hours spent on “No Specific Drug” investigations.
We found that in FY 2005, a total of 289,197.5 hours were charged to “No
Specific Drug” investigations. Of those hours, only 922 (0.32 percent) were
diversion investigator hours, while 203,898 (70.5 percent) were special
agent hours, 66,791.5 (23.1 percent) were task force officer hours, and
17,586 (6.1 percent) were intelligence analyst hours. These analyses
confirmed that diversion investigators had limited involvement in
investigations denoted by the “No Specific Drug” G-DEP substance
identifier. Therefore, we concluded from our analysis that including the
hours spent on “No Specific Drug” investigations, as the DEA suggested,
would improperly inflate the amount of time that the DEA spent
investigating the diversion of controlled pharmaceuticals.

       In its response, the DEA also stated that “this review should reflect
work hours expended under all relevant G-DEP identifiers, just as in the
2002 review.” In fact, the OIG’s 2002 review did not examine work hours by
G-DEP identifier because the DEA told the OIG at the time that it was not
possible to provide data on the number of work hours that special agents
spent on diversion investigations. Therefore, we used DEA officials’ estimate
that special agents spent 1 to 3 percent of their time on diversion
investigations. In the 2002 report, we also gave the DEA the maximum
credit for special agent assistance by using the highest estimate and
calculated the total number of work years spent by special agents on
controlled pharmaceutical cases by computing 3 percent of all special agent
time spent on criminal investigations. That methodology was required
because the DEA could not specifically isolate the work hours spent by
special agents on investigations involving controlled pharmaceuticals.

      Since 2002, the DEA has improved its work hour reporting system
and can now better differentiate and report the work hours spent by special
agents investigating controlled pharmaceuticals, using more specific G-DEP

U.S. Department of Justice                                              69
Office of the Inspector General
Evaluation and Inspections Division
substance identifiers. This improvement allowed the OIG to produce a more
accurate analysis of the percentage of special agent time spent on
pharmaceutical investigations. Given the fact that the DEA has refined its
work hour reporting system so that it can identify work hours for specific
substances by job series, we used this information in calculating the work
hour data.
       In sum, we concluded that using all of the 29 G-DEP substance
identifiers, as suggested by the DEA, would not accurately assess special
agent time spent on pharmaceutical investigations. Thus, we made no
changes to the work hour analysis in the report.
The OIG’s exclusion of task force officer work hours from the analysis
of pharmaceutical diversion work hours
      The DEA response noted that the OIG’s analysis excluded the work
hours of state and local officers working on pharmaceutical investigations
as a part of DEA task forces. The DEA stated:
       Since the 1970s, these task force officers have been an
       extension of the DEA agent workforce, and are federally
       deputized with equal responsibilities and authorities as DEA
       agents. Most important their activities and investigations are
       directed by DEA priorities. Therefore, DEA maintains that the
       investigative work hours that these task force officers spend on
       criminal diversion investigations should be combined with those
       of DEA special agents.
       OIG Analysis. The OIG recognizes the importance of task force
officers to the success of the DEA’s mission. During interviews and in
responses to our survey, diversion personnel often noted the excellent
partnerships they had with officers from state, local, and federal agencies.
Although task force officers often play an important role in the DEA’s
diversion control investigations, the fact that local jurisdictions responded
to the increasing diversion of pharmaceuticals by increasing their support of
DEA task forces is not a satisfactory substitute for the DEA providing
adequate support through its own special agents. The OIG’s review focused
on DEA resources allocated to control the diversion of pharmaceuticals.
      In addition, because this was a follow-up review, we focused on the
current status of the issues we identified in our 2002 review. In that review,
the work hour data analysis focused exclusively on DEA special agents and
the assistance of task force officers was mentioned only in the context of
diversion investigators relying on state, local, and federal agents because of
the lack of DEA special agent assistance.



U.S. Department of Justice                                                70
Office of the Inspector General
Evaluation and Inspections Division
The OIG’s statement that intelligence analyst assistance to diversion
investigations has remained limited
       The DEA response stated that while the OIG report states that
intelligence analyst support has remained limited, its own analysis “shows
that intelligence analyst work hours on diversion investigations increased
58 percent from 25,603 hours in 2003 to 40,517 hours in 2005.” The DEA
also presented its own analysis of the OIG’s diversion group supervisor
survey. Finally, the DEA noted that it is “continuing to expand its
intelligence support to diversion investigations and is in the process of
allocating 41 new intelligence analysts to support the Diversion Control
Program.” 60

      OIG Analysis. The DEA made two arguments to support its
contention that our conclusion concerning limited intelligence analyst
support to diversion investigations was not accurate. First, the DEA’s
statement that intelligence analyst work hours on diversion investigations
increased 58 percent is based on the work hours expended on all 29 G-DEP
substance identifiers that the DEA stated are related to pharmaceutical
investigations, including the “No Specific Drug” category. As we discussed
previously, it is inaccurate to include these substances, particularly the “No
Specific Drug” category. The “No Specific Drug” category contains 37
percent of all the intelligence analyst work hours that the DEA stated were
related to pharmaceutical investigations. Once these hours are excluded,
the increase in work hours is shown to be much more modest, as we
describe in the report on page 36.
       Further, that modest increase appears to be mostly attributable to a
few specific operations rather than an across-the-board increase. We found
that in FY 2005, 44 percent of intelligence analyst time was charged to four
specific operations (page 38). While this indicates that some
pharmaceutical investigations are receiving significant amounts of
intelligence support, it does not establish that intelligence analyst
assistance is generally and consistently available to diversion investigators.
Moreover, our data analysis, interviews, and survey responses showed that
overall intelligence analyst support in the field is limited.
      Second, the DEA presented its own analysis of the results of our
diversion group supervisor survey that obscures important information, and
we do not agree with the DEA’s characterization of the survey data. For
example, the DEA stated that 67 percent of the respondents reported that

       60
           In its FY 2006 appropriations (H.R. Rep. No. 109-118, June 10, 2005), the DEA
was appropriated funds for 41 positions to improve intelligence analysis supporting
diversion investigations. The DEA was allocated 40 of these positions for intelligence
analysts and 1 as a support position.


U.S. Department of Justice                                                        71
Office of the Inspector General
Evaluation and Inspections Division
intelligence analysts always or usually provide a sufficient amount of
intelligence support for diversion investigations. However, the survey
results showed that more than double the number of respondents reported
that DEA intelligence analysts never provide sufficient support than said
DEA intelligence analysts always provide sufficient support. In fact, one-
third of respondents stated that they never receive sufficient intelligence
support. The actual survey question and results are shown below.

                 Percentage   Which of the following best describes the amount
   Number of
  respondents
                     of       of intelligence support that your group receives
                respondents   from DEA intelligence analysts in the field?
                              DEA intelligence analysts always provide a sufficient
       9            14.5      amount of intelligence support for diversion
                              investigations.
                              DEA intelligence analysts usually provide a sufficient
       32           51.6      amount of intelligence support for diversion
                              investigations.
                              DEA intelligence analysts never provide a sufficient
       20           32.3      amount of intelligence support for diversion
                              investigations.

       Similarly, the DEA stated that 72 percent of survey respondents were
very satisfied or somewhat satisfied with the intelligence support received,
as shown in the table below. The survey results showed that 27 percent of
respondents were not at all satisfied with the intelligence that their group
received from intelligence analysts. Further, in our opinion, having an
additional 45 percent of diversion group supervisors report that they are
only somewhat satisfied leaves considerable room for the DEA to improve
intelligence analyst support to diversion investigations. The survey question
and its results are shown below.

                 Percentage   How satisfied are you with the intelligence
   Number of
  respondents
                     of       support that your group has received from the
                respondents   intelligence group in your office?
       17           27.4      Very satisfied
       28           45.2      Somewhat satisfied
       17           27.4      Not at all satisfied


       Moreover, although omitted from the DEA’s response to our report,
17.7 percent of respondents to our survey reported that the availability of
intelligence support often causes delays in investigations, and 37.1 percent
reported that the availability of intelligence support sometimes causes
delays in investigations. This further reinforces our conclusion that the
DEA’s limited support of pharmaceutical investigations is negatively
affecting these investigations. The survey question and its results are
shown below.

U.S. Department of Justice                                                             72
Office of the Inspector General
Evaluation and Inspections Division
                 Percentage   Which of the following best describes the
   Number of         of       availability of intelligence support that your
  respondents   respondents   group receives from DEA intelligence analysts in
                              the field?
                              The availability of DEA intelligence support allows
       23           37.1
                              diversion investigations to continue without delay.
                              The availability of DEA intelligence support sometimes
       23           37.1
                              causes delays in diversion investigations.
                              The availability of DEA intelligence support often delays
       11           17.7
                              diversion investigations.

       The DEA also stated that “75 percent of respondents reported
receiving intelligence for specific investigations when requested.” This
misrepresents the data in our survey. The question that the DEA refers to
was intended to capture the type of intelligence support provided, not the
frequency. The question asks what type of intelligence assistance the
respondent received – not whether they received assistance when they
needed it. The responses to this question indicate that it is far more
common for diversion investigators to receive intelligence support when they
specifically request it than for them to receive proactive intelligence support
on specific potential targets of investigation or trends in diversion. We
found that only 22.6 percent of respondents received intelligence on specific
investigative targets, and 32.3 percent received intelligence on trends in
diversion, as shown in the table below. The survey question and its results
are shown below.

                              Which of the following statements represent the
                 Percentage
   Number of                  types of DEA intelligence that your group
                     of
  respondents                 receives from DEA headquarters or from the
                respondents
                              field?
                              My group receives intelligence for specific investigations
       44            71
                              when we request it.
                              My group receives intelligence regarding specific diversion
       14           22.6
                              targets to consider for investigation.
                              My group receives strategic intelligence regarding general
       20           32.3
                              trends in diversion.

       Moreover, while the DEA and the OIG interpreted the survey results
differently, we also used other evidence from site visit interviews, DEA
threat assessments, and work hour data to conclude that intelligence
analyst assistance remains limited, as it was at the time of our 2002 review.

       Finally, the DEA stated that it is continuing to expand its intelligence
support to diversion investigators and is in the process of allocating 40 new
intelligence analysts to support the diversion control program. While we
agree that such a measure will be helpful, the OIG could not assess the full


U.S. Department of Justice                                                          73
Office of the Inspector General
Evaluation and Inspections Division
impact of these positions on intelligence support because, as of the end of
our field work, the DEA had not yet begun to fill the positions.

The OIG overlooked DEA budget shortfalls that limit support for the
diversion control program

       The DEA’s response also stated that the OIG overlooked “ongoing
budget shortfalls” that limit the manpower support the DEA is able to
provide for the diversion control program. The OIG recognizes that the DEA,
like other Department components, is faced with budget constraints that
require prioritization of limited resources. In conducting our evaluations,
the OIG attempts to assess whether the agency’s response is in proportion
to the scope of the problem and identifies areas where the response could be
improved.

      Yet, we believe the dramatic growth in pharmaceutical diversion
requires the DEA to consider rebalancing its priorities. As we state in our
report on page 2, the abuse of controlled pharmaceuticals can be as
dangerous as the abuse of illicit drugs. Both can result in addiction,
overdoses, and deaths. Two recent reports show the continuing increase in
the diversion of controlled pharmaceuticals. According to a report released
by the National Center on Addiction and Substance Abuse at Columbia
University (CASA) in June 2006, “The extensive availability of controlled
prescription drugs online poses a silent menace to our nation’s health and a
challenge for law enforcement.” The CASA report also documents the
increase in web sites selling controlled pharmaceuticals without requiring
prescriptions between 2004 and 2005 and again between 2005 and 2006.
In addition, a May 2006 study by the Partnership for a Drug Free America
reported that nearly one in five (19 percent or 4.5 million) teens has used
prescription pain relievers or stimulants non-medically and that the
widespread availability and easy access of these substances has driven their
popularity among teens. Additionally, the CASA report states, “Today more
adults and teens report abusing these drugs [controlled pharmaceuticals]
than the number abusing all illicit drugs combined except marijuana.”

       The DEA’s efforts are critical to controlling the diversion of
pharmaceuticals, and undertaking criminal investigations of diverters is
critical to the effectiveness of these efforts. The recommendations in our
report are intended to help the DEA improve its ability to address the
growing problem of controlled pharmaceutical diversion, given the limited
resources available to it.

     The following section addresses the DEA’s responses to the specific
recommendations in the report.


U.S. Department of Justice                                             74
Office of the Inspector General
Evaluation and Inspections Division
RECOMMENDATIONS

       Recommendation 1: Provide diversion investigators with adequate
special agent support until the conversion of the DEA diversion investigator
position to one with law enforcement authority is fully implemented.

       Summary of DEA Response. The DEA did not state concurrence or
nonconcurrence with this recommendation. The DEA asserted that “this
recommendation is unnecessary and its objective – ‘to provide adequate
special agent support’ is ambiguous.” Further, the DEA stated that it has
“provided ‘adequate’ special agent support to diversion investigations.” The
DEA also wrote, “Another concern is the OIG reports’ [sic] misrepresentation
of the August 2001 directive by DEA’s Chief of Operations. DEA’s Chief of
Operations issued this memorandum instructing Special Agents in Charge
to place two special agents in each diversion group in each Division office.”
According to the DEA, this instruction “was overtaken by a 2003 decision to
instead convert diversion investigators to a series with law enforcement
authority.”

       Although the DEA neither concurred nor nonconcurred with this
recommendation, the DEA reported that it is planning to allocate 23
additional special agents to support diversion groups and the diversion
control program. In addition, the DEA response said that within 30 days
after the issuance of this report, the DEA Administrator will issue a
memorandum and worldwide teletype restating that diversion and
trafficking of controlled pharmaceuticals, including Internet trafficking,
remain a top DEA priority and that Special Agents in Charge are to enhance
special agent assistance to criminal diversion investigations.

       OIG Analysis. Recommendation 1 is resolved – open. The actions
planned by the DEA are responsive to the recommendation. Please provide
a copy of the teletype, a description of how the 23 additional special agents
will be deployed to support diversion groups, and a description of how
Special Agents in Charge have enhanced assistance to criminal diversion
investigations in each field division by October 31, 2006.

       However, although we accept the DEA’s planned actions to address
this recommendation, we disagree with several of the statements included in
the DEA’s response. We address each of these statements below.

       The DEA stated that it has “provided adequate special agent support
to diversion investigations.” However, as this report shows, we believe the
DEA should do more to ensure that diversion investigators have adequate
special agent support. Diversion investigators still do not have law
enforcement authority and continue to rely on special agent support to

U.S. Department of Justice                                              75
Office of the Inspector General
Evaluation and Inspections Division
conduct critical tasks in criminal diversion investigations. In 2002, DEA
personnel estimated that special agents spent at most 3 percent of their
time assisting with diversion investigations. Although diversion of
pharmaceuticals has increased dramatically since that time, in our current
review the percentage of special agent time dedicated to pharmaceutical
diversion investigations was at most 2.2 percent. Further, we were told
during field interviews that diversion investigators’ lack of law enforcement
authority, coupled with inconsistent levels of special agent support,
impeded diversion investigators’ criminal pharmaceutical investigations.
Moreover, our review of the DEA’s 2004 Pharmaceutical Threat Assessments
and our survey results supported the field interviews. And although the
DEA has proposed converting the diversion investigator position to one with
law enforcement authority, this proposed conversion has not yet occurred.

       We also disagree with the DEA’s statement that the OIG
misrepresented an August 2001 directive by DEA’s Chief of Operations. In
the memorandum in question, the DEA’s Chief of Operations instructed
Special Agents in Charge to place two special agents in each diversion group
in each Division office to better support diversion investigations. According
to the DEA, this instruction was overtaken by a 2003 decision to instead
convert diversion investigators to a job series with law enforcement
authority. However, the DEA presented no documentation showing that the
directive had been overtaken or rescinded. In fact, the DEA reaffirmed the
2001 Chief of Operations’ directive by using it as evidence in a DEA 2003
memorandum to the Department requesting conversion of the diversion
investigator position. 61 In addition, this explanation that the memorandum
was overtaken by the 2003 decision to convert diversion investigators
contradicts the DEA’s previous written statements to us, in February 2006,
in which it said that the terrorist attacks of September 11, 2001, had
prevented the DEA from implementing the 2001 Chief of Operations’
directive.

       In conclusion, although the DEA states that it believes this
recommendation to be “unnecessary,” several sources of evidence (such as
site visit interviews, analysis of survey responses, review of the DEA 2004
Pharmaceutical Threat Assessments, and special agent work hour data)
showed that for many diversion investigators, inadequate special agent
support, coupled with their own lack of law enforcement authority, remains
a serious concern. In our report (beginning on page 16), we note many
positive steps that the DEA has taken to improve its pharmaceutical

       61
           The 2003 memorandum briefly outlined the history of the diversion investigator
position and stated that the 2001 directive reaffirmed previously described constraints on
the diversion investigator position in order to clarify the duties and responsibilities to the
diversion investigator workforce.


U.S. Department of Justice                                                              76
Office of the Inspector General
Evaluation and Inspections Division
diversion control program. However, contrary to the DEA’s claim that this
recommendation is unnecessary, it is needed to ensure that the DEA
consistently, sufficiently, and timely supports diversion investigations.

       Recommendation 2: Ensure that DEA special agents who frequently
assist with diversion investigations attend the week-long diversion training
school.

       Summary of DEA Response. The DEA concurred with the
recommendation and will continue to identify and offer training to all special
agents and task force officers who are assigned to Tactical Diversion Squads
or who assist with diversion investigations. The DEA stated that, dependent
upon funding, special agents and task force officers will be identified and
will attend the 1-week diversion course during FY 2007.

     OIG Analysis. Recommendation 2 is resolved – open. The actions
planned by the DEA are responsive to the recommendation.

       Please provide your target number and timeline for the special agents
and task force officers who are assigned to Tactical Diversion Squads or who
assist with diversion investigations to attend the 1-week course. Please
explain how special agents and task force officers will be identified and
prioritized for this training, and submit the number of special agents by
field office that are expected to attend the course during FY 2007. In
addition, please indicate whether any of the agents currently assigned full
time to diversion groups, Tactical Diversion Squads, or other diversion task
forces are not expected to attend the 1-week course during FY 2007. Please
provide an alternative plan to address this recommendation by October 31,
2006, if the DEA anticipates funding or other constraints will prevent
special agents and task force officers assigned to Tactical Diversion Squads
or assisting with diversion investigations from attending the 1-week course
during FY 2007.

      Recommendation 3: Provide training to intelligence analysts on
topics that would effectively support diversion investigations.

       Summary of DEA Response. The DEA concurred with the
recommendation and said it will conduct an assessment to determine the
precise analytic needs of diversion investigators and investigations, which
will then be used as a baseline to design a course and curriculum for
intelligence analyst training.

     OIG Analysis. Recommendation 3 is resolved – open. The actions
planned by the DEA are responsive to the recommendation. However, the
DEA noted that development of the curriculum and commencement of the

U.S. Department of Justice                                             77
Office of the Inspector General
Evaluation and Inspections Division
training are dependent on funding. If the curriculum is developed and the
training commences, please provide us with a report on the findings of the
assessment, a copy of the new curriculum, and the schedule of intelligence
analyst diversion courses planned for FY 2007 by October 31, 2006. If
funding or other constraints prevent the DEA from developing the
curriculum and conducting courses in FY 2007, please provide an
alternative plan to address this recommendation by October 31, 2006.

      Recommendation 4: Update the diversion control training video
used in the special agent and intelligence analyst training academies to
include current issues such as diversion using the Internet.

       Summary of DEA Response. The DEA concurred with the
recommendation and said it is currently in the process of developing a new
training video specifically for pharmaceutical diversion, which it expects to
complete by September 30, 2006.

      OIG Analysis. Recommendation 4 is resolved – open. The action
planned by the DEA is responsive to the recommendation. Please provide a
copy of the new video by October 31, 2006.

       Recommendation 5: Ensure that diversion investigators receive
training in skills necessary for conducting Internet investigations, such as
financial investigations.

       Summary of DEA Response. The DEA concurred with the
recommendation and said it will conduct a needs assessment to determine
the knowledge, skills, and abilities necessary for diversion investigators to
effectively conduct Internet investigations by November 2006; increase the
number of diversion investigators who attend the DEA Special Operations
Division’s Internet Telecommunications Exploitation Training (ITEP) school
in FY 2007; increase the number of diversion investigators who attend the
DEA’s financial investigations, asset forfeiture, complex conspiracy, and
FinCEN/Gateway courses; and modify existing courses or develop new ones
to meet the needs of diversion investigators.

       OIG Analysis. Recommendation 5 is resolved – open. The actions
planned by the DEA are responsive to our recommendation. However, the
DEA noted that increasing the number of diversion investigators attending
the ITEP course is dependent on funding. Please provide us with the status
of the needs assessment, an FY 2007 schedule showing the planned
number of sessions of each course listed in your response as relevant to
Internet diversion investigations, and the number of diversion investigators
expected to attend each course during FY 2007 by October 31, 2006. If
funding or other constraints prevent the DEA from taking these actions,

U.S. Department of Justice                                              78
Office of the Inspector General
Evaluation and Inspections Division
please provide an alternative plan to address this recommendation by
October 31, 2006.

     Recommendation 6: Fully implement the program to provide
undercover credit cards to diversion investigators.

      Summary of DEA Response. The DEA concurred with the
recommendation and said it has approved the program, tested it, and issued
guidelines. The DEA reported that 7 of its 21 field divisions have received
the undercover credit cards and that the remaining divisions are in various
stages of processing and having banks issue the undercover cards. The
DEA anticipates that the program will be completely implemented by
December 2006.

      OIG Analysis. Recommendation 6 is resolved – open. The actions
planned by the DEA are responsive to the recommendation. Please provide
a status report on the implementation by October 31, 2006.




U.S. Department of Justice                                             79
Office of the Inspector General
Evaluation and Inspections Division
